<html>
<title> - BROADCASTING: THE REVIEW OF PRIORITIES</title>
<body><pre>[Senate Hearing 106-617]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-617

                 BROADCASTING: THE REVIEW OF PRIORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                     U.S. GOVERNMENT PRINTING OFFICE
66-329 CC                    WASHINGTON : 2000





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Kaufman, Hon. Edward E., Governor, Broadcasting Board of 
  Governors, Washington, DC......................................     7
    Prepared statement...........................................     7
    Responses of Edward Kaufman and Alberto Mora to additional 
      questions from Senator Jesse Helms.........................    32
    Responses of Edward Kaufman and Alberto Mora to additional 
      questions from Senator Russell Feingold....................    40
Mora, Hon. Alberto, Governor, Broadcasting Board of Governors; 
  accompanied by: Tom Korologos, Governor, Broadcasting Board of 
  Governors; Sanford Ungar, Director, Voice of America; Thomas A. 
  Dine, President, Radio Free Europe/Radio Liberty; Dick Richter, 
  President, Radio Free Asia, Washington, DC.....................     3
    Prepared statement...........................................     7
    Responses of Edward Kaufman and Alberto Mora to additional 
      questions from Senator Jesse Helms.........................    32
    Responses of Edward Kaufman and Alberto Mora to additional 
      questions from Senator Russell Feingold....................    40
SaveVOA Committee, statement submitted for the record............    41

                                 (iii)

  

 
                 BROADCASTING: THE REVIEW OF PRIORITIES

                              ----------                              


                       WEDNESDAY, APRIL 26, 2000

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:03 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Rod Grams 
(chairman of the subcommittee) presiding.
    Present: Senators Grams and Feingold.
    Senator Grams. Well, good afternoon. I would like to bring 
this hearing to order.
    And I want to welcome everybody here today. I want to 
especially welcome our witnesses from the Broadcasting Board of 
Governors, Mr. Edward Kaufman and Mr. Alberto Mora. We want to 
thank you for coming to testify before us today.
    Now, as the co-chairmen of the subcommittee of the Board, 
which recently completed the congressionally mandated language 
services review on broadcasting priorities, they are 
particularly well suited to discuss the relevance of U.S. 
Government supported international broadcasting in the post-
cold war era.
    Now, since this is the Foreign Relations Committee's first 
hearing devoted to broadcasting since USIA was folded into the 
State Department and the Broadcasting Board of Governors became 
an independent agency, I hope our witnesses will feel free to 
express their personal views on matters outside the confines of 
the language review.
    I know they are both well-versed in all aspects of our 
Nation's broadcasting operations.
    And as you are well aware, there is a significant 
difference between the role of VOA and that of the surrogate 
services, which now seek to fill a void in countries where a 
free press does not exist.
    Surrogate services provide independent news and cultural 
information about a targeted nation, operating in place of 
indigenous news stations. VOA has a different mission.
    It is charged with presenting ``a balanced and 
comprehensive projection of significant American thought and 
institutions,'' ``the policies of the United States clearly and 
effectively,'' and ``responsible discussion and opinion on 
these policies.''
    Mr. Kaufman, Mr. Mora, I am interested in hearing from our 
witnesses on how well you both believe VOA is carrying out 
these missions.
    I am pleased the Broadcasting Board of Governors designated 
your subcommittee to supervise a thorough review of language 
services. And I appreciate your efforts to prioritize our 
expenditures and provide focus to our international 
broadcasting efforts.
    While the results of your review have been controversial, 
that is hardly surprising. And in my experience, any time 
budget cuts are recommended, of course, controversy follows.
    So I look forward to your testimony and a discussion of 
international broadcasting priorities as we now enter a new 
century.
    So, again, I want to thank you both for taking time to join 
us today.
    We are joined by Senator Feingold of Wisconsin. And 
Senator, did you have opening remarks?
    Senator Feingold. Thank you. Thank you, Mr. Chairman. I 
would like to thank you and Senator Boxer, also, for this 
hearing today, and thank the witnesses for being here to 
testify.
    As many of you know, I have a long history of interest in 
the nature and oversight of our overseas broadcasting programs.
    I have fought for streamlining, for consolidation and above 
all for fiscal responsibility. I have consistently--and some 
have even said relentlessly--pressed for the elimination of 
obsolete services and for the inclusion of fiscal independence 
in our understanding of what a truly independent broadcast 
would mean.
    I do remain concerned about the self-perpetuating nature of 
programming established to deal with a specific time and set of 
circumstances, which, I think, we would all agree have changed 
dramatically over recent years.
    With that said, I am no enemy of broadcasting. As the 
ranking member of the subcommittee on African Affairs, I have 
been impressed by the excellent work of Voice of America in the 
region.
    Low literacy rates and underdeveloped infrastructure 
throughout sub-Saharan Africa make radio a remarkably powerful 
mode of communication.
    And I know that the VOA has in many cases made the most of 
the possibilities, helping to reunite families separated in 
civil strife, exploring the possibilities for conflict 
resolution, and introducing ideas of democratic accountability 
to its listeners.
    I look forward to hearing more about the Broadcasting Board 
of Governors' plans for Africa, as well as their efforts to 
eliminate redundancy and to phaseout obsolete programs during 
today's hearing.
    The process of reforming overseas broadcasting for the 
post-cold war era is by no means finished. This hearing is a 
good opportunity to identify and discuss the many challenges 
that remain.
    And I, again, thank the Chair.
    Senator Grams. All right. Thank you very much, Senator 
Feingold.
    Gentlemen, I would like to hear your opening statements. 
Mr. Mora, we will begin with you.
    Mr. Mora. Thank you, Mr. Chairman.

STATEMENT OF HON. ALBERTO MORA, GOVERNOR, BROADCASTING BOARD OF 
      GOVERNORS; ACCOMPANIED BY: TOM KOROLOGOS, GOVERNOR, 
BROADCASTING BOARD OF GOVERNORS; SANFORD UNGAR, DIRECTOR, VOICE 
OF AMERICA; THOMAS A. DINE, PRESIDENT, RADIO FREE EUROPE/RADIO 
LIBERTY; DICK RICHTER, PRESIDENT, RADIO FREE ASIA, WASHINGTON, 
                               DC

    Mr. Mora. Mr. Chairman, Senator Feingold, on behalf of 
Chairman Mark Nathanson and our other colleagues on the 
Broadcasting Board of Governors, we would like to thank you for 
the opportunity to testify on the Board's efforts relating to 
language service review.
    My name is Alberto Mora. I am accompanied by my fellow 
Governors, Ted Kaufman, to my left, and Tom Korologos, as well 
as by VOA Director Sanford Ungar, RFE/RL Director Tom Dine, and 
RFA Director Dick Richter, among other colleagues in 
international broadcasting.
    Following my testimony, which condenses our longer written 
statement, Governor Kaufman, with your indulgence, shall make a 
brief statement. We ask that a full version of our written 
statements be included in the record.
    Senator Grams. Without objection, so ordered.
    Mr. Mora. As this is the first time the Board will testify 
since celebrating our independence on October 1, 1999, it is 
also an opportunity to thank this committee for its work in 
creating the new independent BBG in the Foreign Affairs Reform 
and Restructuring Act of 1998.
    Independence is an embrace of the idea that all of our 
broadcasters are journalists who are accurate, objective and 
comprehensive in their approach to the delivery of news and 
information.
    The creation of this new entity also reaffirms the role of 
international broadcasting in the new century as a voice of 
human rights and democratic freedoms with new global challenges 
and priorities to address.
    The creation of an independent BBG also belies statements 
that we are a cold war institution whose work is done. 
International broadcasting will continue to be vital as long as 
segments of the world's population are denied access to a free 
press and hunger for alternative sources of news and 
information.
    As far as we are concerned, the end of the cold war did not 
bring an end to history, nor did it bring an end to repressive 
regimes.
    U.S. international broadcasting reaches out to the world in 
61 different languages, touching well over 100 million 
listeners, viewers and Internet users.
    Freedom House estimates that more than 4 billion people 
live in societies where governments severely control or 
suppress print and broadcast media, or where the media is only 
partially free.
    The Voice of America, Radio Free Europe, Radio Liberty, 
Radio Free Asia, WORLDNET Television, and Radio and Television 
Marti, our constituent elements, provide these populations with 
news, balanced analysis, insights into American policy, and the 
straight story on what is going on in their own countries.
    In the past year, we fulfilled our mission during the 
crisis in Kosovo, as we did in Iran, Iraq, Korea, Cuba and many 
other places.
    And we were on the ground in Chechnya during the efforts--
through the efforts of RFE/RL correspondent, Andrei Babitsky, 
whose courageous and celebrated coverage of that crisis was 
ultimately ended by the Russian Government.
    And I may take a moment, Mr. Chairman, to thank this 
committee and the Senate for their support of Andrei Babitsky 
during the past year.
    Congress has mandated that the Board ``review,'' evaluate, 
and determine at least annually, after consultation with the 
Secretary of State, the addition or deletion of language 
services.'' The process we call language service review 
implements this mandate through a methodology that assesses 
both the priority and impact of our 61 language services.
    Stated succinctly, this process seeks to ensure that U.S. 
international broadcasting is present and effective where U.S. 
strategic interests are most pressing.
    Language service review has led us to make some tough 
decisions. As a result of this process, we have decided to 
reduce 16 language services, enhance 13 services, and further 
review 12 others.
    We would note here that the reductions have principally 
affected VOA broadcasting in Polish, Hungarian, and Czech, as 
well as RFE/RL broadcasting in Romanian and--and Bulgarian.
    In essence, we have reduced broadcasting to areas where we 
were a mainstay during the cold war, but are newly democratic. 
And we have or will reallocate resources to other areas of the 
world that are still repressed or struggling to establish 
democracy.
    These decisions are particularly important, given that the 
funding environment for broadcasting is static. But the 
political and strategic environment offers new challenges. The 
Board recognizes the seriousness of this exercise. Adjustment 
to language services have direct implications for personnel, 
budget and foreign policy.
    We have not sought to impose such change from the top, but 
rather have sought consensus with the heads of the broadcasting 
services. And we have not sought to duplicate the existing 
program review function of the broadcasters.
    Language service review is an overarching, strategic 
analysis, whereas program review evaluates the specific 
programming of each language service for content and 
presentation.
    Two questions form the basis of language service review: 
Where should we broadcast, and how well are we broadcasting it? 
We answered the first question by evaluating and ranking all 
language services in order of priority, using the criteria of 
U.S. strategic interest, press freedom, political freedom, 
economic freedom and population size.
    We answered the second question by assessing impact through 
a service by service review, using the criteria of audience 
size, both general and elite, programming quality, transmission 
effectiveness, budget, broadcast hours, in-country awareness 
and media environment and use.
    This analysis yielded a number of compelling findings as we 
classified our language services in terms of higher and lower 
priority and higher or lower impact.
    One key finding was that the cold war priorities continued 
to fade. The importance of broadcasting to Poland, Hungary and 
the Czech Republic, for example, has sharply diminished as 
these nations have become members of NATO and developed free 
and open media.
    In contrast, a host of existing and new priorities stand 
out, including China, Russia, the Middle East, Serbia, Nigeria, 
India and Pakistan and Iran and Iraq, among others.
    U.S. international broadcasting, as expected, has the 
greatest impact in terms of percentage of adult listening in 
denied or information poor areas such as Central Africa, 
Afghanistan, Cambodia, Haiti and many other countries. However, 
it is our objective to increase the impact of these other 
services as well.
    When we looked at budget outlays, there also emerged 
significant mismatches of priorities and resources. For 
example, our combined allocation for VOA and RFE/RL 
broadcasting to Romania totaled $2.9 million and ranked tenth 
dollar-wise of our 61 language services. However, Romania 
figures in the lower tier of services in terms of priority. In 
contrast for our higher priority Kurdish service ranks 53rd 
among all services.
    The goal of the Board in providing a strategic direction 
for U.S. international broadcasting and in spending the 
taxpayer's dollars wisely is to ensure that we have sufficient 
impact in our higher priority language services.
    Toward this end, it is the Board's duty to reallocate 
resources as necessary among our language service and 
ultimately to decide if we must delete or add specific 
languages.
    We also expect to begin selected enhancements in the near 
future and other enhancements in fiscal year 2001 as funds from 
the reductions become available after accounting for severance 
costs.
    For example, these enhancements include establishing a 
robust advertising and marketing program in Russia and the 
Ukraine to support RFE/RL broadcast services and also by 
enlarging the VOA affiliate's network in Colombia and enhancing 
VOA reporting there by expanding news and information directly 
related to that country.
    It is precisely through this type of reallocation of 
resources away from the priorities of yesterday and toward the 
priority of today and tomorrow that the Board seized a concrete 
utility of language service review.
    Thus while VOA programming may be reduced in Eastern 
Europe, the savings from these reductions will eventually 
flower as new programming in Indonesia, Africa, and other parts 
of the world.
    The language service review process, as noted, looked at 
transmission effectiveness as one of the criteria in assessing 
impact. It is imperative that our broadcast be readily 
available to our target audiences. We are committed to 
succeeding in an increasingly multi-media world.
    There are two basic issues in achieving this success. The 
first concerns the selection of the medium to use, whether 
radio, television, Internet or a combination of these. Because 
we broadcast worldwide, we confront every type of media 
environment. There is no one-size-fits-all solution to any 
specific area.
    The second issue concerns how well we distribute our 
broadcast in the chosen medium. Although the role of television 
was not specifically addressed during the language service 
review process, the parenthetical word about the future of 
television would be appropriate here.
    It is not news that TV is on the rise everywhere. It has 
been so for many years. However, the growing consumer 
preference for television in key markets relative to radio is 
an important factor in our language service review 
deliberations.
    WORLDNET television has been a part of U.S. international 
broadcasting now for two decades. For nearly half that time, 
selected VOA language services have offered TV simulcasts of 
their radio shows.
    Now, we find that a visually enhanced television product in 
vernacular languages could well fill an important niche in many 
media markets, allowing us to reach new audiences.
    We believe the way to structure ourselves to produce this 
new TV programming is through a reorganization of WORLDNET. We 
have proposed a merger of WORLDNET into VOA to launch a 
serious, sustained television effort with a single editorial 
operation. This would leverage VOA's language capabilities and 
brand name with WORLDNET's technical capabilities.
    Similar considerations apply, I should add, to the Board's 
consideration of the Internet. As the Internet explodes around 
the world, it increasingly allows us an efficient and effective 
synergy with our traditional radio broadcasts and will meld 
perfectly with enhanced TV programming.
    The Board has made our expanded use of the Internet a top 
priority. However, we fully understand the limitations for 
reaching mass audiences of this medium and will not sacrifice 
our other delivery methods as we pursue this opportunity.
    One of the unfortunate results of language service review 
is that some of our broadcast services will lose funded 
positions, and we will be forced to conduct a reduction in 
force to downsize these language services.
    As the Board shifts priorities from some parts of the world 
to others, we need to realign personnel resources accordingly. 
Unlike some other government agencies where jobs may be easily 
transferred to other positions, it is more difficult to move 
Voice of America broadcasters from one language service to 
another, given the high level of language skills and knowledge 
of the audience that are required.
    For example, as a result of language service review, 
broadcasting to Poland will be reduced, while broadcasting to 
Indonesia may be enhanced. But we cannot transfer easily a 
Polish broadcaster to the Indonesian service unless he or she 
has the required language skills.
    While this is a regrettable situation, we can assure you 
that we will be working diligently to provide affected 
employees with appropriate counseling, assistance in pursuing 
employment leads and consideration in matching their skills 
against vacancies that may occur within our organization or 
elsewhere in the Federal Government.
    Mr. Chairman, we are proud of the recent accomplishments of 
each of our broadcasting entities under our supervision, and we 
are proud to be part of broadcasting's long history of 
achievement.
    We thank you and the committee for your historic support.
    Senator Grams. Thank you very much, Mr. Mora, for your 
statement.
    Mr. Kaufman.

  STATEMENT OF HON. EDWARD E. KAUFMAN, GOVERNOR, BROADCASTING 
               BOARD OF GOVERNORS, WASHINGTON, DC

    Mr. Kaufman. Mr. Chairman, Senator Feingold, I would like 
to add just a few words to what Governor Mora has delivered 
this afternoon.
    Historically, nations have had three main types of tools 
they have used to advance their foreign policy. They are 
political, which is primarily diplomacy and the State 
Department; strategic, which is primarily the Defense 
Department and military; and economic, which is used in many 
ways, but, of course, the most popular way today, which is most 
controversial, is economic sanctions.
    However, in the modern world, we need a strong fourth 
option, in addition to diplomacy, Armed Forces and economic 
sanctions. I suggest Thomas Friedman's book, ``The Lexus and 
the Olive Tree,'' where he goes into great detail about the 
interrelationship between these three and the media.
    We need the ability to use the media, radio, television, 
and the Internet, to effect decisionmaking worldwide and to 
explain our policies abroad.
    Globalization may be making the world more inter-dependent, 
but it does not mean we understand each other better than 
before. Many of our modern international involvements are 
caused by the rise of ethnic, racial, religious and regional 
conflicts. Often, these are started by hate radio or by a 
dictator who uses state radio to inflame the radical elements 
in the country.
    We must be able to help counteract these activities, to 
minimize the conflict. U.S. international broadcasting does 
that.
    The language service review effort by the Broadcasting 
Board of Governors was an effort to focus our limited resources 
on areas of the world where we need to have impact, to meet 
foreign policy challenges.
    We hope that this committee can support this effort and the 
funding that we require to implement. Thank you, both.
    Senator Grams. Thank you very much, Mr. Kaufman.
    [The prepared statement of Mr. Mora and Mr. Kaufman 
follows:]

 PREPARED STATEMENT OF ALBERTO MORA AND EDWARD E. KAUFMAN, GOVERNORS,
                    BROADCASTING BOARD OF GOVERNORS
                    
    Mr. Chairman and Members of the committee, we would like to thank 
you for the opportunity to testify on the Board's efforts relating to 
language service review. As this is the first time the Board will 
testify since celebrating our independence on October 1, 1999, it is 
also an opportunity to thank this committee for its work in creating 
the new, independent BBG in the Foreign Affairs Reform and 
Restructuring Act of 1998.
    Independence is an embrace of the idea that all of our broadcasters 
are journalists who are accurate, objective, and comprehensive in their 
approach to the delivery of news and information. The creation of this 
new entity also reaffirms the role of international broadcasting in the 
new century as a voice of human rights and democratic freedoms with new 
global challenges and priorities to address.
    The creation of an independent BBG also belies statements that we 
are a Cold War institution whose work is done. International 
broadcasting will continue to be vital as long as segments of the 
world's population are denied access to a free press and hunger for 
alternative sources of news and information about their own countries 
and the rest of the world. The end of the Cold War was not the end of 
history; it was not the end of repressive regimes. Our mission is 
growing as are our methods of delivering news and information to people 
around the globe.
    U.S. international broadcasting reaches out to the world in 61 
different languages, touching more than 100 million listeners, viewers, 
and Internet users. Freedom House estimates that more than four billion 
people live in societies where governments severely control or suppress 
print and broadcast media or where the media is only partly free. The 
Voice of America, Radio Free Europe/Radio Liberty, Radio Free Asia, 
WORLDNET Television, and Radio and TV Marti provide these populations 
with news, balanced analysis, insights into American policy, and the 
straight story on what is going on in their own countries. In the past 
year, we fulfilled our mission during the crisis in Kosovo, providing 
an accurate source of news and supplying information leading to the 
reunification of refugee families. We are present in Iran, Iraq, Korea, 
and Cuba. And we were on the ground in Chechnya through the efforts of 
correspondent Andrei Babitsky, whose coverage of that crisis was 
ultimately ended by the Russian Government.

                        LANGUAGE SERVICE REVIEW

    U.S. international broadcasting needs to be present where U.S. 
strategic interests are the most pressing and where credible news and 
information are restricted or otherwise unavailable. Congress has 
mandated that the Board ``review, evaluate, and determine, at least 
annually, after consultation with the Secretary of State, the addition 
or deletion of language services.'' The process we call ``language 
service review'' implements this mandate through a methodology that 
assesses both the priority and impact of our 61 language services.
    Language service review has led us to take some tough decisions. We 
have reduced broadcasting to areas where we were a mainstay during the 
Cold War but are newly democratic, and will reallocate resources to 
other areas of the world that are still repressed or struggling to 
establish democracy. These decisions are particularly important given 
that the funding environment for broadcasting is static, but the 
political and strategic environment offers us new challenges.
    The Board recognizes the seriousness of this exercise. Adjustments 
to language services have direct implications for personnel, budget, 
and foreign policy. We have not sought to impose such change from the 
top but rather have sought consensus with the heads of the broadcasting 
services.

Methodology

    Two questions form the basis of language service review--Where 
should we broadcast? and How well are we broadcasting? We answer the 
first question by evaluating and ranking all U.S. international 
broadcasting language services in order of priority, using the criteria 
of U.S. strategic interests, press freedom, political freedom, economic 
freedom, and population size. We answer the second question by 
assessing impact through a service-by-service review, using the 
criteria of audience size (both general and elite), programming 
quality, transmission effectiveness, budget, broadcast hours, in-
country awareness, and media environment and use.
    Through language service review, we are able to sort our language 
services in terms of higher and lower priority and higher and lower 
impact. The goal of the Board in providing a strategic direction for 
U.S. international broadcasting, and in spending the taxpayers' dollars 
wisely, is to ensure that we have sufficient impact in the higher 
priority areas. Toward this end, it is the Board's duty to reallocate 
resources as necessary among our language services and ultimately 
decide if we must delete or add specific language services.

Results

    As a result of the Board's language service review this year, we 
have taken decisions to reduce 16 language services, enhance 13 
services, and further review 12. The details of these actions are 
complex. We would highlight here that the reductions have principally 
affected Voice of America broadcasting in Polish, Hungarian, and Czech 
as well as Radio Free Europe/Radio Liberty broadcasting in Bulgarian 
and Romanian. These VOA services reach countries that are now NATO 
members and possess free and open media. The two RFE/RL services have 
had unsustainably high budgets, reflecting Cold War priorities.
    The Board expects to begin selected enhancements in the near future 
and other enhancements in FY 2001 as funds from the reductions become 
available after accounting for severance costs. These will include:

  <bullet> establishing a robust advertising and marketing program in 
        Russia and the Ukraine to support RFE/RL broadcast services;

  <bullet> acquiring 24-hour FM frequencies in Jakarta and Dili to 
        serve the capital and East Timor, respectively;

  <bullet> reinstating 13.5 broadcast hours across a range of services 
        for Africa; and

  <bullet> enlarging the VOA affiliates network in Colombia and 
        enhancing VOA reporting for Colombia by expanding news and 
        information directly related to Colombia.

    It is precisely through this type of reallocation of resources, 
away from the priorities of yesterday and toward the priorities of 
today and tomorrow, that the Board sees the concrete utility of 
language service review.

Consultation with the Department of State

    We welcome the Secretary of State as an ex officio member of the 
Board. We have always recognized that U.S. international broadcasting 
exists to further the broad foreign policy objectives of the United 
States. Through the Secretary's designee to the Board, Under Secretary 
of State for Public Diplomacy and Public Affairs Evelyn S. Lieberman, 
we have quickly established an excellent working relationship. We 
acknowledge our respective roles. We determine what and how we 
broadcast. The Department of State offers guidance on where we should 
broadcast and advises us on foreign policy priorities as these relate 
to U.S. international broadcasting. Early in this year's review 
process, the Board formally requested the Department's views on these 
priorities and received a detailed briefing by its Office of Policy 
Planning. We will be implementing actions regarding Russia, Indonesia, 
the Ukraine, Africa, among other areas that are fully consistent with 
Department guidance.

Technology

    The language service review process, as noted, looked at 
transmission effectiveness as one of the criteria in assessing impact. 
It is imperative that our broadcasts be readily available to our target 
audiences. We are committed to succeeding in an increasingly multi-
media world.
    There are two basic issues in achieving this. The first concerns 
the media we choose to use--radio, TV, Internet, or a combination of 
these. Because we broadcast worldwide, we confront every type of media 
environment. There is no ``one size fits all'' for use of media to 
reach our target audiences. What we seek to do is accommodate the media 
market, do what we feel we can be competitive at, what the priority of 
the language service requires, and what we can afford. We seek 
synergies across media. In markets where two of our language services 
operate, we seek to balance the use of media between the two.It is not 
news that TV is on the rise everywhere; it has been so for many years. 
However, the growing disproportionate access and use of TV in key 
markets relative to radio is an important factor in our language 
service review deliberations. WORLDNET TV has been a part of U.S. 
international broadcasting for two decades. For nearly half that time, 
selected VOA language services have offered TV simulcasts of their 
radio shows. Now we find that a visually enhanced TV product in 
vernacular languages offering timely and relevant news and information 
could well fill an important niche in many media markets, allowing us 
to reach new audiences.
    We believe the way to structure ourselves to produce this new TV 
program is through a reorganization of WORLDNET. We have proposed a 
merger of WORLDNET into VOA to launch a serious, sustained television 
effort with a single editorial operation. This would leverage VOA's 
language capabilities and brand name, and WORLDNET's technical 
capabilities.
    As the Internet explodes around the world, it increasingly allows 
us an efficient and effective synergy with our traditional radio 
broadcasts, and will meld perfectly with enhanced TV programs. 
Together, our broadcasters now stream real and archive audio in over 30 
languages and archive text in nearly all languages. RFE/RL Web sites, 
which provide the very best news and information anywhere on the states 
of the former Soviet Union, receive over 15 million hits per month. The 
Board has made our expanded use of the Internet a top priority. 
However, we fully understand its limitations in reaching mass 
audiences, and are therefore in no way sacrificing our other delivery 
methods as we pursue this effort.
    The second issue concerns how well we distribute our broadcasts via 
the chosen medium. For both radio and TV we have essentially two 
options--direct broadcasts and broadcasts via affiliate stations. Since 
the end of the Cold War, as media markets in Central and Eastern Europe 
and elsewhere have opened, FM radio has generally become the medium of 
choice among radio listeners. To make our programs available on FM, we 
have had to develop an aggressive radio affiliates recruitment effort. 
This remains a priority.
    At the same time, we have not forsaken direct radio broadcasts via 
shortwave and medium-wave. Shortwave remains key to reaching audiences 
in rural areas and across many under-developed nations. Medium-wave, or 
AM, provides us with yet a third modality that is very effective for 
shorter-distance yet cross-border situations, and is more amenable to 
listeners than shortwave. Our shortwave and AM are also the backbone of 
our essential surge broadcasting capability.
    Distributing TV products likewise offers the affiliate option as 
well as direct-to-home, via satellite. The latter might seem to offer 
relatively low penetration, but in key areas such as the Gulf states in 
the Middle East, per capita ownership of satellite dishes is very high. 
Given that these same households hardly use radio, reaching them at all 
necessitates a TV product distributed via satellite. In less-developed 
areas, such as Albania and Kosovo, satellite ownership is surprisingly 
high. It was to reach the Albanian speakers in these areas that VOA 
debuted a new Albanian-language TV simulcast program last fall.
    Choosing the appropriate medium and distribution means is, 
therefore, a complex undertaking. In the end, it's a market-by-market 
determination. Language service review will increasingly focus on the 
opportunities and trade-offs that this situation demands.

Reductions in Force

    One of the unfortunate results of language service review is that 
some of our broadcast services will lose funded positions and we will 
be forced to conduct a reduction-in-force (RIF) to downsize these 
language services. As the Board's review determined a shifting priority 
from some parts of the world to others, we need to realign personnel 
resources accordingly. Unlike some other government agencies where jobs 
may be easily transferred to other positions, it is more difficult to 
move Voice of America broadcasters from one language service to 
another, given the high level of language skills and knowledge of the 
audience that are required. For example, as a result of language 
service review, broadcasting to Poland will be reduced while 
broadcasting to Indonesia may ultimately be enhanced. But we cannot 
easily transfer a Polish broadcaster to the Indonesian service unless 
he or she has the required language skills.
    While this is a regrettable situation, we can assure you that we 
will be working diligently to provide affected employees with 
appropriate counseling, assistance in pursuing employment leads, and 
consideration in matching their skills against vacancies that may occur 
within our organization or elsewhere in the Federal Government. We 
expect to be able to provide new employment opportunities within the 
BBG to some of the 51 employees who will be displaced by the pending 
RIF. Some others are eligible for retirement. But we are committed to 
providing the best possible assistance to these employees that we can.
    Mr. Chairman, we are proud of the recent accomplishments of each of 
the broadcasting entities under the supervision of the BBG and we are 
proud to be a part of broadcasting's long history of achievement. 
Language service review is not an exercise designed to penalize a 
service or to augment one broadcast entity to the detriment of the 
other. Each service has a specific mission to accomplish and each must 
refocus its broadcast targets to preserve its greatest impact on a 
changing world. Savings gained from reductions in a broadcast entity 
will be used to bolster its programs to other areas of the world. For 
example, while VOA's programming may be reduced in Eastern Europe, the 
savings from these reductions will eventually flower as new programming 
in Indonesia, Africa, and other parts of the world.

                     RECENT BROADCASTING CHALLENGES

    While the focus of this hearing is devoted to the process for 
identifying the priority and impact of our language services, we would 
also like to take this opportunity to stress some of the recent 
challenges and accomplishments of each of the broadcast entities. 
Perhaps the most dramatic story of recent months has been in Russia 
with respect to RFE/RL's coverage of the war in Chechnya. As this 
committee well knows, RFE/RL correspondent Andrei Babitsky was detained 
by the Russians because of his on the scene coverage of that conflict, 
telling the Russian people and others in the region the facts behind 
the war, including the carnage in the Chechen civilian population, the 
drama of the refugees, and the death toll among Russian soldiers. Mr. 
Babitsky's own human drama brought to light the work that is being done 
around the world by the correspondents of each of our service entities, 
bringing news and information to societies that do not enjoy the free 
flow of information.
    In the past several years, broadcasting has tackled many 
challenges, both technological and ideological. Broadcasting to the 
former Yugoslavia was dramatically expanded during the NATO airstrikes 
and mass killings of Kosovar Albanians by the Serb militia. Both VOA in 
Albanian and Serbian, and RFE in its South Slavic service, rose to meet 
the challenge. We established new services to the Balkans, with RFE in 
Albanian and VOA in Macedonian, leading the way in establishing the 
``Ring around Serbia'' of FM stations broadcasting news from British, 
German, and French international broadcasters. A network of more than 
30 affiliate stations was created in Bosnia which carries a two-hour 
Bosnian language program and a Serbian language newscast that updated 
audiences on Kosovo throughout the day.
    We are working to update and streamline our technical capacity to 
better meet future challenges. A VOA-TV and WORLDNET pilot program 
demonstrated that we can take advantage of VOA's global network of 
foreign and U.S. correspondents for radio and television in a 
multimedia approach. We are continuing to work toward the conversion to 
digital systems that can allow a single digital journalistic product to 
be available via radio, TV, or the Internet without costly conversion. 
We have refined and expanded websites to provide Internet access to 
news, information, and analysis.

Voice of America

    The events of 1999 were challenging for the VOA as it launched its 
53rd language service by initiating broadcasts in Macedonian to the 
Balkans. When the Kosovo crisis led to NATO bombing, VOA was on the air 
to give accurate and objective information to Albanians and Serbs. As 
Milosevic cracked down on indigenous private media, VOA stepped up its 
broadcasting and transmissions to the region in conjunction with sister 
stations RFE/RL, BBC, Radio France International, and Deutsche Welle. 
Special programming in Albanian helped families separated by the 
fighting to find each other in the refugee camps. Newly trained video 
journalists were able to capture the Kosovo story and give an honest 
picture of events to audiences in the Balkans, Russia, and China who 
had been receiving misleading information from their governments.
    As VOA moves into the new century, it is diversifying the ways 
audiences can choose to access its news and information programs. While 
still primarily a radio network, VOA is increasingly making programs 
available for television and Internet broadcasting. These media help us 
reach a broader and more diverse audience in certain countries where 
the reliance on international radio and shortwave is declining. This 
was demonstrated during coverage of the recent elections in Taiwan, as 
VOA's China Branch provided live Mandarin updates and analysis, 
simulcast for radio, TV and the Internet and viewed by large audiences 
in Taiwan and Mainland China.
    Last January, VOA won its first silver medal in the category of 
Television News Special at the New York Festivals, taking the prize for 
a feature on a young woman's search for her family among the thousands 
of refugees crossing into Albania during the Kosovo war. In addition to 
authoritative news broadcasts, VOA offers its listeners music, 
education, cultural and call-in shows. Twenty-four hours a day, seven 
days a week, VOA is on the air to bring America's story and America's 
point of view to an estimated 91 million regular listeners worldwide.

Radio Free Europe/Radio Liberty

    Radio Free Europe/Radio Liberty (RFE/RL), on the air for half a 
century this year, broadcasts more than 800 hours a week in 26 
languages providing daily news, analysis and current affairs 
programming for a coherent, objective account of the events in their 
region and the world.
    As a surrogate radio, or ``home service'' to countries where the 
media are struggling amid chaotic economic conditions and often 
dictatorships to achieve financial and editorial independence, RFE/RL's 
mission remains the promotion of democratic values and institutions by 
disseminating factual information and ideas. Based on the conviction 
that the first requirement of democracy is a well-informed citizenry, 
RFE/RL strives to provide objective news and analysis; help strengthen 
civil societies; combat ethnic and religious intolerance; and provide a 
model for local media.
    RFE/RL maintains 22 bureaus and has regular ties with more than 
1,000 local freelancers and stringers. It uses shortwave broadcasts to 
reach its listeners, but increasingly is utilizing AM/FM stations 
through 98 affiliate partners in all its broadcast countries except 
Belarus, Iran, Iraq, Tajikistan and Turkmenistan. In addition, RFE/RL 
maintains an active presence on the Internet.
    RFE/RL, with its extensive news coverage of events in Serbia, 
Kosovo and Montenegro, was able to penetrate the information blockage 
imposed on Yugoslav citizens by President Slobodan Milosovic during 
last year's military conflict with NATO. A dramatic example of the 
effectiveness of RFE/RL broadcasts was reported by NATO and US 
officials. On May 19-20, 1999 NATO spokesman Jamie Shea and U.S. State 
Department spokesman Jamie Rubin gave RFE/RL credit for breaking the 
news that police units loyal to Serbian President Slobodan Milosovic 
had used water cannon against 600 women and children in the town of 
Krusevac who were protesting the fact that their husbands and fathers 
were fighting and being killed in Kosovo. When Serbian troops heard 
these and other reports of police brutality against their families, 
they deserted the battlefield to come home and defend their loved ones.
    In Armenia, an RFE/RL correspondent was on the scene when gunmen 
attacked the Parliament building on October 27, 1999, and killed the 
Prime Minister, Vazgen Sarkisyan, the speaker of the Parliament and six 
other Armenian political leaders. The correspondent telephoned Prague 
headquarters from the Parliament building and broke the story.

Radio Free Asia

    Like RFE/RL, Radio Free Asia (RFA) is a surrogate radio service 
broadcasting to areas where the media is controlled. For over three 
years RFA has been broadcasting via short wave to China, Tibet, North 
Korea, Vietnam, Cambodia, Laos, and Burma. With the help of Congress, 
seven months ago RFA completed its build-up to 24 hours of daily 
programming to China in multiple languages and dialects. Programming is 
in Mandarin at 12 hours a day, Tibetan in three different dialects at 8 
hours a day, three hours of Cantonese, one hour of Uyghur, and an hour-
and-a half a week of Shanghaiese. RFA strives to reach the largest and 
most diverse audience possible. Listener response indicates that RFA 
has been successful in reaching across age groups and all walks of 
life.
    RFA continues to break stories in its target countries, such as 
unrest in Xinjiang's Hotan region reported by the Uyghur service. 
Aggressive reporting on events in North Korea is carried almost weekly 
by South Korean newspapers and news agencies. RFA continues to cover 
extensively the Vietnamese government's crackdown on the United 
Buddhist church and the Hoa Hao Buddhist sect. The recently inaugurated 
Tibetan call-in program is the only forum of its kind where Chinese and 
Tibetan callers have the opportunity to discuss with each other social 
and political issues. In Cambodia, RFA broadcasts about the existence 
of secret illegal marijuana plantations led to the public burning of 
the fields by Prime Minister Hun Sen. The Mandarin Service obtained the 
first interview with Dickinson College scholar Song Yongyi following 
his release from a Chinese prison. He had been accused of purchasing 
``intelligence for foreigners'' during a trip to China to gather 
information on the Cultural Revolution. And since RFA's first 
broadcasts to China, it has reported on worker protests that went 
unreported by the Chinese and Western media.

Broadcasting to Cuba

    The Office of Cuba Broadcasting (OCB) provides coordinated 
management of the Radio Marti and TV Marti programs from its 
headquarters in Miami, Florida. Radio and TV Marti are dedicated to the 
promotion of freedom and democracy in Cuba, with a programmatic 
strategy based on the promotion of human rights. Last year, Radio Marti 
provided coverage of: the Ibero-American Summit in Lisbon, Portugal, 
interviewing 17 presidents; the Rio Group Meeting; the Caribbean Summit 
in the Dominican Republic, the First Lady's visit to Nicaragua and 
Honduras; and the U.N. Human Rights Commission. Radio and TV Marti 
continue to provide information to the people of Cuba through reports 
of the most important U.S. news stories, digests of world news, stories 
related to Cuba. Among these reports are information on political 
repression in Cuba, stories on the plight of dissidents, coverage of 
the U.S. presidential race, and of the events surrounding the case of 
Elian Gonzalez. This year, TV Marti will develop two new programs. The 
first, designed to reach women in Cuba, will feature in-depth analysis 
and discussion of political changes in Cuba and women's health and 
medicine. The second will feature a political analyst and an economist 
who will analyze and discuss local and international issues that affect 
Cuba.
    Again, thank you for this opportunity to share with you the results 
of the first language service review and to highlight some of the 
accomplishments of each of the service entities over the past year. We 
would be glad to answer any questions you or other Members of the 
committee might have.

    Senator Grams. Gentlemen, just some brief questions today. 
As I noted in my opening statement, there is significant 
difference between the role of VOA and that of the surrogate 
services, which seek to fill a void where a free press does not 
exist. However, I would like you to compare the services under 
the Board's supervision in another respect.
    Will you compare the management, the cost effectiveness and 
the impact of the operations run within the Government, such as 
the VOA, and compare those with those run as independent 
private entities? Those would be Radio Free Europe, Radio 
Liberty, Radio Free Asia. Can you give me a comparison of 
those?
    Mr. Kaufman. Clearly, the Government--because it is the 
Government--has special requirements. These have been developed 
over the years by the Congress and by the President and require 
special considerations of all kinds to meet objectives and to 
make sure there is no waste, fraud and abuse.
    Our surrogate organizations, which are independent 
grantees, are not required by law to meet a lot of these same 
requirements. Primarily, because of the efforts of Senator 
Feingold earlier in this decade, we have tried very hard to 
have our surrogate broadcasters meet the same requirements as 
the Government, especially when it comes to requirements of 
comparability and pay for employees and operations, to make 
sure that we are maintaining the policy requirements of the 
Congress and the President.
    And, again, Senator Feingold was the author of the 
legislation to do that. In this area we have tried to go beyond 
the letter of the legislation and really tried to get to the 
spirit of what Senator Feingold had in mind when he wrote that 
legislation.
    So I think many people would say it is easier to operate if 
you are not part of the Federal Government. I think that is a 
fair statement.
    But I also think that there are requirements that we have 
in terms of our employees and in terms of the way we operate 
that require us to run our surrogates as much as possible like 
they were part of the Federal Government.
    Senator Grams. Mr. Mora, would you like to----
    Mr. Mora. I think I would echo Governor Kaufman's answer 
and emphasize what we all have discovered on the Board of 
Governors, that when you are operating more in the private 
sector as RFE/RL does and Radio Free Asia, there is greater 
agility and greater management flexibility that is otherwise 
not found in a government bureaucracy.
    Senator Grams. Now, I have been told the number of VOA 
listeners per week has dropped by some 20 percent in the last 5 
years.
    How do the trends in VOA audience levels in the last 5 
years compare to the surrogate services run on a more 
independent basis from that of the Government? Would you care 
to compare those numbers?
    Mr. Mora. Mr. Chairman, frankly that statistic takes me by 
surprise. I am not aware that that number has come to the 
attention of the Board, and perhaps we can hear from the VOA 
director later with respect to that question. But I am simply 
not familiar with a drop in listenership to that extent.
    Having said that, there is no question that audiences in 
Central Europe, the former denied areas that have now begun to 
democratize, the former Soviet Union and these other countries, 
that the listenership not only for Voice of America, but for 
other international radio services has dropped.
    As media becomes more free and more diverse, there is a 
greater choice of indigenous media available to local 
listeners. The trend worldwide has been for a decreased 
listenership for international radio services, not only Voice 
of America and RFE/RL.
    Having said that, though, we retain a significant audience 
particularly among elites in many of those formerly denied 
territories.
    Senator Grams. Mr. Kaufman.
    Mr. Kaufman. There is a basic difference here, as you so 
eloquently stated in your opening statement. Surrogate 
broadcasting is broadcasting that would be carried on if there 
was a free press in that country.
    If you do research around the world, you find whether it is 
in Minnesota, Wisconsin or right here, if you ask people what 
they are most interested in, they are most interested in what 
is going on in Minnesota, Wisconsin or right here.
    They are not as much interested in what is going on in the 
world at large; so that obviously surrogate radio in places 
where it exists has a big leg up over the Voice of America.
    But the other point is that we have a mission that goes 
beyond just what people want to hear. We have to make it 
palatable, but we have an obligation to bring the foreign 
policy considerations and the opinions of the United States 
around the world.
    It is very important for us to provide local news. 
Surrogate broadcasting provides a very real need, but I think 
it is like the ying and the yang. I think you need both in 
order to do well. And we have countries literally side by side 
where VOA will have a higher listenership than Radio Free 
Europe/Radio Liberty has in the same area and vice versa.
    The reality of reduced resources is driving our language 
service review.
    But we really believe that VOA and the grantees provide 
very distinct and needed services. For instance, there is no 
doubt that in places like China and Russia you need both of 
those services. You need the Voice of America presenting the 
view of the United States, and you need the local surrogate 
service providing what is going on in the local country.
    Whether, in times of reduced funding, we can afford to have 
both in some other countries is a question that we plan on 
dealing with in the second round of language service review and 
on out into the future.
    Senator Grams. Which governments devote the most effort and 
resources to trying to jam American broadcast, and how 
effective are these jamming devices? Are there more areas that 
work harder to keep us out, and what are the effective ways 
they do that?
    Mr. Mora. Mr. Chairman, the--let me see. The current 
governments that jam our international broadcast services 
include Cuba, China, and Vietnam. Iran, for a period of time 
during the Iranian elections, jammed services. The Chinese 
Government is jamming, of course not only Mandarin service, but 
the Tibetan service and other vernacular services there.
    Jamming radio is not an exact science. Jamming--even the 
most determined jamming is ultimately permeable. We find that 
we have audiences in all these countries, notwithstanding the 
efforts by the local governments to jam.
    The quality of the jamming varies, depending upon the 
location and atmospheric conditions, but ultimately, we find 
both Voice of America and Radio Free Asia, that the signals are 
getting through and that the audiences are not only sustained, 
but in the case of Radio Free Asia and Voice of America growing 
in those specific countries.
    Senator Grams. So you would say that they are not that 
effective in jamming, or they are at times, but you find ways 
to get around?
    Mr. Mora. Well, that is correct. Now--I mean, there is a 
lot of detail involved here. For example, the jamming efforts 
of the Cuba regime in Havana are quite effective. Radio Marti, 
for example, has great difficulty penetrating the localized 
jamming in the capital city of Havana. But you find that Radio 
Marti is effective in communicating its message outside of the 
capital city elsewhere.
    But I do not mean to say that it does not create a 
trouble--a great trouble for us and that it is not a hindrance 
to the effective communication of our message.
    Senator Grams. Is it cost effective to try and do the 
broadcasting, even if the jamming is going on? I mean, are we 
getting enough penetration to make it worthwhile?
    Mr. Mora. I think the answer to that is unquestionably yes, 
Senator.
    Senator Grams. OK. Mr. Kaufman, would you----
    Mr. Kaufman. Yes. Just two points: One is we cannot allow 
dictators to know that if they jam our radio broadcast they 
will be successful in ending them. It is a little like 
negotiating with hostage-takers. In the short run, we may have 
to broadcast into some places and spend money without getting 
through, but we have to let the dictators know they cannot stop 
us.
    The second point is--and I know the Foreign Relations 
Committee is considering a number of issues with regard to 
China--it would be very helpful if China understood that, in a 
time when they are trying to promote free trade and trying to 
promote freedom of transmission of ideas, they should not be 
allowed to continue to jam us the way they do.
    And I think it should be an objective of this foreign 
policy to support negotiation with China to stop the jamming.
    Senator Grams. Thank you.
    Senator Feingold.
    Senator Feingold. Mr. Chairman, thank you for acknowledging 
my interest in this over the years, and I appreciate your 
report.
    The legislation that we enacted in 1994 mandated that RFE/
RL prepare themselves for a cutoff of public funding, and were 
required to either find private sources of funding or accept 
elimination.
    Last year, these surrogate services were given a reprieve 
by Congress, one that I did not entirely agree with, but I just 
wonder if you can answer: Over the past 6 years, did RFE/RL 
ever make any steps toward fiscal independence?
    Mr. Kaufman. Absolutely. There was a major effort to try to 
privatize. As you know, we went ahead and privatized the 
Polish, Czech and research services. When the BBG first came 
in, it was one of the first things on our agenda, because of 
your legislation, to make sure that it was done.
    They made major efforts trying to privatize. I do not know 
whether to quote Governor Korologos or ask him to say it 
himself, but we propounded the Korologos rule when it comes to 
this, after several years of trying to privatize. The problem 
with privatization is nobody is going to privatize and then 
broadcast what we want them to broadcast, or what is the U.S. 
foreign policy.
    You cannot go into a country like Serbia and broadcast into 
Serbia, if you want to sell Nikes and say the kinds of things 
we say about what Milosevic is doing to the country. We found 
that the people who might be interested in buying the name of 
RFE/RL were not interested in projecting U.S. foreign policy or 
doing any of the things that we think are important.
    Again, to get to the Korologos rule--the Korologos rule is: 
If it is worth doing, it is worth paying for. And that is kind 
of what we came up with as the way to approach this.
    Mr. Mora. Mr. Chairman, if I might add to amplify the 
question a bit, it is well worth remembering that RFE/RL has 
suffered a two-thirds reduction in personnel and budget since 
1995, from about 1,200 employees to approximately 445; and from 
a budget of--at that time of approximately $225 million to its 
current approximately $75 million.
    But as we have seen particularly in the situation of Russia 
recently and specifically the situation of Andrei Babitsky and 
the efforts of the Russian Government to choke off information 
about what is actually happening in that area of the world and 
disquieting policy and pronouncement by President Putin and 
others in the current administration to suggest that the regime 
may be reconsidering prior policy of openness with respect to 
the media, RFE/RL and particularly our RL transmissions to 
Russia remain vitally important. And that serves as a symbol 
for the continuing importance and vitality of Radio Free 
Europe/Radio Liberty broadcasts to the region.
    Senator Feingold. I understand that, but my question had to 
do with the privatization aspect----
    Mr. Mora. Where the----
    Senator Feingold [continuing]. Whether it is privatized 
or--I heard--I heard your answer. Well, could you talk a little 
bit more specifically about what you have done to eliminate 
redundancy in countries that are served both by VOA and RFE/RL?
    Mr. Mora. Mr. Chairman, we--in the course of the language 
service review, Governor Kaufman and I constituted the 
subcommittee entrusted by the Board with the responsibility 
recognized earlier on that, first of all, in terms of analyzing 
the expenditures to particularly the broadcasting to specific 
areas, the only fair way to do so would be to aggregate both 
VOA and RFE/RL expenditures toward the same country in order to 
reach a correct assessment of the totality of the U.S. 
broadcasting investment to that country.
    So all of our analysis and our description that we have 
described to you today is based upon that premise.
    We also operate from the premise that in an area of 
shrinking budgets, one of the closest and most--the hardest 
looks that we had to give to our expenditures was precisely to 
those countries in which there is an overlap between RFE and RL 
broadcasting.
    Some of the cuts that were announced this year by the BBG 
reflect our assessment that economies can be made in several of 
those countries where there is duplicate broadcasting. And the 
subcommittee and the entire BBG has to take a much closer look 
at all those countries in which there is duplicate broadcasting 
next year.
    Now, as Governor Kaufman said, even though we think there 
are further economies that are available to us, I think we will 
be recommending some of them next year. In some countries like, 
for example, Russia and China, it makes great good sense to 
have two robust services broadcasting, simply because it is so 
much in the American interest that there be a clear 
communication with the populations in those countries.
    Senator Feingold. Let me follow on the question of jamming 
that the Chairman got us started on, with specific reference to 
Cuba. You indicated that the Cuban Government was significantly 
successful in jamming Radio Marti, but not entirely successful, 
is that correct?
    What about TV Marti? I am told that virtually no one ever 
sees that, and are we sure that is such a great concession to 
Castro to not have that, if we were to continue, let us say, 
Radio Marti?
    Mr. Kaufman. Absolutely, Senator. The way I like to think 
about it is if you are in some country, and we are broadcasting 
into your country things you do not want to hear.
    An aide comes in, and the leader says, we want to stop 
them. How much will it cost to jam the broadcast coming in?
    And the aide says, you know, $1 million a month, or 
whatever it costs.
    And then the dictator is going to say, well, how long do we 
have to do this? Will we have to do it for 1 month or 10 months 
or a year or 2 years?
    And the answer would come back, we would have to probably 
do it indefinitely, because there is no case where America has 
shut down a broadcasting service because a dictator has blocked 
it or jammed it.
    So I think, as I said earlier, it is the cost of doing 
business. I do not think we can say to Castro that, because you 
decide you are going to spend the money to block TV that we 
should stop broadcasting television. I think that is the reason 
we should continue.
    And I think we are trying to find more and different ways 
to try to get our television signal into Cuba. But I guess it 
gets back, like I said to the hostage thing. In the short term, 
is it expedient to negotiate with hostage-takers? Yes.
    But as a society and civilization, we say it is not good to 
give in to hostage-takers, because it increases the chance that 
they will pick somebody else up off the street. And I think 
that is kind of our approach with TV Marti.
    But clearly that is in the discretion of the Congress. It 
is not our decision whether we do TV Marti or not.
    Senator Feingold. Well, I think it is an interesting 
argument which I am listening to, but I question whether the 
argument is--can be rigidly applied.
    Let us say we had three services vis-a-vis Cuba. And one 
was completely ineffective, as it appears that TV Marti may be. 
I hope we will at least consider the possibility that something 
that is entirely ineffective that we continue, let us say, 
Radio Marti. And that would not necessarily be a signal to Mr. 
Castro that he can frustrate our objectives.
    It might even be a signal to him that we are efficient and 
can focus our money on things that work, but I do think it is 
an interesting argument. And I want to think about it.
    The language service review appears to have much more 
cutting of VOA programming than that of RFE/RL programming. 
Could you explain to me why that choice was made?
    Mr. Mora. I think the simple answer is that RFE/RL endured 
its cuts back in 1995. But notwithstanding that, I think a 
budgetary and programmatic fact, RFE/RL is cutting back certain 
services. In fact, the ballpark estimate of savings that are 
anticipated from the RFE/RL cuts that were put into place by 
this cycle of language review total approximately $1 million.
    And we will be looking, as I mentioned earlier, at 
reductions again next year in RFE/RL programming as well.
    Senator Feingold. Mr. Chairman, if I could just clarify 
something before----
    Senator Grams. That is fine. Go ahead.
    Senator Feingold. Did you say one of the reasons that it 
was done is because RFE/RL had cuts in the past?
    Mr. Mora. Yes, sir. There was a two-thirds reduction in the 
VOA budget, RFE/RL budget and RFE/RL personnel in 1995.
    Senator Feingold. Let me just suggest those cuts were made 
on purpose and it was not the intention that the money would 
come from another source, so----
    Mr. Mora. No, Senator.
    Senator Feingold. I just want to be sure you understand 
what the intent was.
    Mr. Mora. No. No, Senator. I mean, just to suggest--
whatever the intent, the cuts were made.
    Senator Feingold. As they were intended to be.
    Mr. Kaufman. This was before the Board was set up, but I 
think it is a model of how cuts can be made and maintain 
service.
    What went on there is absolutely incredible. When you look 
at what was done, that move and the way it was done, and the 
way the morale was maintained, I think the guidance by the 
Congress was excellent and I think the implementation by the 
people on the ground was excellent.
    But I think they did really get cut to the bone. They have 
had a cap on how much they can spend for a while now. 
Meanwhile, costs and everything else have gone up. I think they 
are really in rough shape, not that VOA is not. VOA is in the 
same position.
    But they are still recovering from some rather amazing work 
that was done through your legislation.
    Senator Feingold. I appreciate your answers.
    Thank you, Mr. Chairman.
    Senator Grams. Thank you very much, Senator.
    Gentlemen, I am also concerned VOA is becoming less of a 
voice of things American and more of a multi-cultural voice of 
news about the various countries of the world, inverting again 
its intended purpose as Mr. Kaufman, you know, pointed out 
before, the role of VOA.
    Certain requirements under the VOA's charter appear to have 
fallen by the wayside in the course of this administration.
    For example, what non-news program does the Voice of 
America currently carry to explain U.S. foreign policy and to 
explain significant currents in American thought today?
    Mr. Mora. Mr. Chairman, that question is at a level of 
specificity that we would invite the VOA director to come and 
testify with respect to that specific question, if you would 
desire.
    Senator Grams. Sure, that would be fine. We can also get 
more details in writing later, and we would like that as well.
    Mr. Kaufman. Of course.
    Senator Grams. Mr. Ungar.
    Mr. Ungar. Thank you, Mr. Chairman. I am Sanford Ungar, 
Director of the Voice of America since last June.
    If I understand your question correctly, you wanted to know 
what non-news programs we present that explain U.S. foreign 
policy and American culture.
    Senator Grams. That is correct.
    Mr. Ungar. We continue to have, as VOA has for many, many 
years, a very broad selection of programs; for example, 
presenting the music of the United States and other aspects of 
American culture.
    We now have a 24-hour music service. We have for years--in 
fact, many people will tell you that in Eastern Europe one of 
the major factors during the cold war years was the jazz 
programs on the Voice of America.
    Senator Grams. I thought you meant country and western.
    Mr. Ungar. Well, we also do country and western, as a 
matter of fact. We make a major effort in country and western 
and other contemporary music.
    There is a woman named Judy Massa, who is one of the best-
known advocates and presenters of American country music in the 
world. She has a program called ``Border Crossings,'' as well, 
which is quite popular in many places.
    We provide a great deal of information about American 
foreign policy, about American policies in general, about the 
States of the United States, and what is happening across this 
country.
    We have recently compiled a report that will be submitted 
to the committee, demonstrating--it is this thick 
[indicating]--demonstrating our coverage of American culture, 
American society and events across the country.
    Senator Grams. Would you say these are random programs then 
on various topics, or are there appointed times for certain 
type of programming to do certain things?
    Mr. Ungar. Well, there are, in addition, editorials on the 
Voice of America, which are not prepared by the Voice of 
America staff itself, but by the Office of Policy of the 
International Broadcasting Bureau.
    And 1 minute per hour there are editorials in all 53 of our 
language services that represent the official view of the U.S. 
Government, primarily on foreign policy issues.
    But I would not say our programming is random at all. I 
would say that we are making a particular effort to modernize, 
streamline, make our programming crisper and make it appeal to 
a younger audience around the world as well.
    And I think we could demonstrate convincingly that it 
represents accurately the policy debate in the United States.
    Senator Grams. So do you disagree with the statement I made 
or my concern that VOA is becoming less of a voice of things 
American rather than becoming more of a multi-cultural voice?
    Mr. Ungar. I do disagree with that statement, Senator. I 
would say, Mr. Chairman, that VOA has always regarded it as 
part of its mission to provide balanced, neutral, reliable, 
trustworthy information about the world for the world.
    And we continue to cover international events in a broad 
sense. And that, too, is part of VOA's purpose. But I would not 
say that we are becoming less a voice of things American.
    Senator Grams. OK. I can appreciate your answers, but I 
still would like to maybe submit this question in more detail 
and writing, and then have more of a detailed response and 
examples, if we could, that we could look at and study.
    Mr. Kaufman. By the way, section 2420 of the law requires 
us to give you information on how we are using products of the 
50 States. We have compiled that report, and we will be sending 
that up to you shortly.
    Senator Grams. OK. I used to be in radio. And I know we had 
to keep logs, so there is nothing----
    Mr. Ungar. Yes. We are well aware of your excellent record 
in broadcasting, Mr. Chairman.
    Senator Grams. All right. Well, thank you very much. Thank 
you.
    The language service review has led to plans to rely more 
heavily on Internet streamlining of radio transmissions as 
well. Is this actually likely to reach many people given the 
event that in fairly highly developed Central European 
democracies, only a tiny sliver of the population is affluent 
enough to have some Internet access?
    I understand, for instance, that less than 2 percent of the 
people in Poland now have Internet access. So is this, again, 
getting the bang for the buck, so to speak?
    Mr. Kaufman. Yes. First of all, Internet is the future. If 
you were to try and design something for us to help 
international broadcasting, you could not do any better than 
the Internet. What happens in so many countries as you go 
through Europe, nationalities are not all together.
    There are Russians all over Eastern Europe. When we have 
the Internet up and running, Russians will be able to get 
Russian services off the Internet no matter where they are. And 
the same thing with Romanians and Hungarians and so on.
    So first off, the future is the Internet. People can get it 
now, but eventually more will be able to get streaming of our 
radio and TV broadcasts.
    Senator Grams. Yes.
    Mr. Kaufman. Is this going to replace radio and television? 
Absolutely not, not in the foreseeable future. But for 
instance, we just finished a survey in Estonia and found that 
90 percent of the elites in Estonia use the Internet regularly.
    I do not say that is typical of every place, but if there 
are 90 percent in Estonia, you just have to wonder where it is 
going.
    In Beijing, 5 percent of the people in Beijing say they 
have regular access to the Internet.
    So I think our interest in the Internet is forward looking. 
But I think right now it provides a wonderful supplement to the 
other things that we are doing.
    We are going to be doing a lot more on the Internet, and we 
are going to be coming to ask you for help in doing some of the 
things we are going to have to do in terms of infrastructure to 
make that real.
    Senator Grams. I realize this about China and other parts 
of Europe, but what about Africa? Is that also----
    Mr. Kaufman. No. In Africa, we have wonderful listenership 
to short wave. Twenty-four percent of the people in Nigeria, 
almost that many in Ethiopia, listen to Voice of America 
regularly.
    So, as Governor Mora said, in areas that are not served by 
popular media, short wave works just great. In addition we are 
developing more medium wave and FM.
    But when you get to Europe it becomes a very, very 
competitive marketplace. At the same time, these countries are 
the ones that are entering NATO.
    Senator Feingold put in his legislation that we have to 
look at each one of these countries in terms of what 
competitive media exists and what is the media environment that 
we are broadcasting into, to consider whether we should 
continue to broadcast there.
    Senator Grams. I am just interested, when you say 24 
percent listenership, how do you measure that? Do you have a 
Nielsen's----
    Mr. Kaufman. No, we do our own surveys.
    Senator Grams [continuing]. That sort of thing? Yes.
    Mr. Kaufman. We do more and more research. One of the big 
things that Congress has done for us the last 2 years is to 
give us more money for research.
    And, you know in broadcasting, without some way of knowing 
what your listeners think, you can be fooled to believe 
anything.
    Senator Grams. Yes.
    Mr. Kaufman. Thanks to Congress, we have a very rich 
research service, which we want to expand. And we actually poll 
in Nigeria--and in Nigeria, it is not difficult. You can poll 
in Nigeria fairly easy. When you get to places like China, it 
gets a lot more difficult.
    Senator Grams. Mr. Mora.
    Mr. Mora. Mr. Chairman, this also goes back to the issue 
that the focus of language service review and of the Board is 
to increase the effectiveness of our broadcasting services. I 
think the feeling among the Board is that perhaps for too long 
we were broadcasting this year because we broadcast last year.
    Through research in all the countries in which we were 
broadcasting, that now enables us to gauge with a much greater 
level of precision whether or not we actually have an audience 
and are having an impact in the intellectual discourse of that 
country.
    The point is that the Board is determined to ensure that 
our broadcast services have an impact. If they do not have an 
impact, then we will analyze the measures that are required to 
ensure that we do have an impact.
    And if that means that we have to reallocate funds from 
lower priority language services to ensure impact in the higher 
priority services, the Board is prepared to do that, but so the 
point being that we look at every country separately. We 
analyze what the media preferences are. We analyze what it will 
take to become effective in that country.
    And then the Board will tailor our broadcasting strategies 
and our choice of media to that specific country and that 
specific set of circumstances.
    Senator Grams. OK. It is my understanding that the Board 
refused to follow through on a request by VOA's leadership to 
get $4.5 million transferred from the State Department's budget 
as specifically permitted by the appropriations legislation 
that we passed, to cover mandated cost of living increases.
    So the question is: Would you explain the reasons the Board 
makes that decision, including any concerns that acting 
otherwise would further delay the need to make hard choices 
about RIF's at VOA?
    Mr. Kaufman. Yes. The language service review process is a 
strategic process. It is not a budget driven process.
    No matter what we had done on that decision of the $4.5 
million, we still would have had these RIF's, because the 
changes are being made in the services based on strategic 
considerations as Governor Mora pointed out in his original 
request.
    The second point is that the decision on the $4.5 million 
was based on the promise that we would not have any RIF's. And 
clearly, since this is strategic driven service, and we were 
going to go ahead with the RIF's, it would have been improper 
for us to have taken the $4.5 million based on no RIF's, when 
in fact, we were going to have RIF's.
    Senator Grams. Yes. Is it true that some 33 RIF's that 
should have taken place under the previous director were 
deferred, and does this make your job even more difficult now?
    Mr. Kaufman. I think what happened in that year was we were 
able to use funds from IBB to pay for those 33 positions that 
VOA had projected they had to RIF, so we did not RIF. That 
would have been a budget-driven RIF.
    No, I would say that the decision we make on these RIF's 
was based on the language review process, which Governor Mora 
laid out, where we are trying to decide what our priorities are 
in each country, what we can do, and then generate funds to be 
used in the places where we are having less impact or in our 
higher priority countries.
    Senator Grams. Yes. Mr. Mora, any----
    Mr. Mora. Senator, I think I would just add to that answer, 
that when the language service review was underway, as Governor 
Kaufman has indicated, the focus of the subcommittee and 
ultimately of the committee was on strategic redirection for 
our language services.
    It was only after the decision was made on how to redirect 
the language services that an assessment was made as to what, 
if any, RIF's would be entailed as a result of these decisions.
    So the initial planning was not based on whether it would 
or would not produce RIF's. That came after the fact and was a 
secondary element--not an element at all in our initial 
decisions to make these kinds of changes.
    Senator Grams. OK. Have any of the broadcasting services 
absorbed entire offices or any large groups of lawyers who used 
to work at USIA before USIA was folded into the State 
Department by the reorganization legislation developed by this 
committee?
    Mr. Mora. Mr. Chairman, as a former general counsel of 
USIA, let me say that the Broadcasting Board of Governors 
absorbed a general counsel's office as part of the separation 
of personnel and functions between the former USIA and now the 
new BBG.
    But the ratio of attorneys to staff was, to my knowledge, 
something that was consistent with the similar division of 
personnel between the two agencies.
    It does not appear to me, at least, based upon my current 
experience and my past experience as general counsel to be 
anything out of the ordinary in any Federal agency.
    Senator Grams. That was going to be my followup question. 
Is there any ratio of lawyers to staff now that is out of 
whack? I mean, do we have some high-price lawyers and need some 
staff that we are not able to hire or have to let go?
    So is that ratio, do you think, in balance, or could we use 
fewer lawyers and more staff?
    Mr. Mora. Well, we have----
    Senator Grams. Nothing against lawyers, of course.
    Mr. Mora. We--yes, yes. Thank you.
    We have, I believe, currently three attorneys on staff. And 
we will be hiring two more, which represents a relatively small 
complement of attorneys, given the various legal skills that 
are required to effectively operate a Federal agency; for 
example, personnel, procurement, as well as just general 
telecommunications expertise are three sets of legal skills 
that are absolutely required.
    Once you fill those, there is not really a lot more room 
for other general skills. So my personal opinion is that we do 
not have too large a staff of attorneys at the BBG.
    Mr. Kaufman. We took the office at USIA and said some 
portion--I think it was almost half the office--goes with USIA 
to State and a little less than half the office comes to do our 
support work.
    So the lawyers essentially who were doing our support work 
before independence were doing our support work after 
independence. And it was just that they are sitting in a 
different office than the one they were sitting in previously.
    Senator Grams. But there would not be an increase in 
numbers or----
    Mr. Kaufman. No increase in numbers.
    Senator Grams. OK.
    Senator Grams. All right. There is a proposal being 
considered to merge WORLDNET TV with Voice of America. Have any 
developments or problems at WORLDNET led to the proposal for 
this merger?
    Mr. Mora. Mr. Chairman, this is an important point of the 
testimony. And I think if we are going to leave the committee 
with one message, it would be to allow us to retain the 
flexibility to tailor our television services as the needs of 
the local target audiences or country would require.
    Any efforts, however well intentioned on the budgetary side 
to restrict our ability to reshape our television broadcast 
services--thank you--could end up being counter-productive in 
the sense that it would hamper our efforts to communicate 
effectively with target audiences.
    Some countries, for example Indonesia, surveys indicate 
that 73 percent of Indonesians take their primary news and 
information from television.
    Surveys in China indicate that 90 percent of the Chinese 
would say that their primary source of news and information is 
television, as opposed to much lower--much, much lower 
percentages for radio in those two countries.
    And these two countries are not idiosyncratic. We find a 
trend toward a consumer preference of television as opposed to 
other media services in country after country.
    International broadcasting has to meet this kind of 
challenge. We have to do better television. We have to have the 
ability to broadcast in television if local audience 
preferences state that.
    If we are precluded from effectively implementing 
television services as an integral part of VOA's international 
operations or RFE/RL's or RFA's international operations, it 
would be equivalent to restricting us to, say, to the telegraph 
as a way of communicating with target audiences. Simply, it is 
an unnecessary and counterproductive decision.
    Mr. Kaufman. They asked Willie Sutton, why did he rob 
banks. And he said, ``That is where the money is.''
    Senator Grams. Yes.
    Mr. Kaufman. The reason we have to get into TV is because 
that is where the listeners are.
    Senator Grams. Well, the language service review appears to 
have concluded that we are living in more of a TV world now 
than we are in a radio world. However, questions remain as to 
whether VOA is the viable home for TV, and whether VOA is up to 
the task of running a television service. Would you agree with 
that or not?
    Mr. Kaufman. Our core business is going out, obtaining the 
news, knowing the local language and culture, and being able to 
deliver the news in the local language. You know, ``We speak 
your language,'' is our theme.
    Nobody else in the world has the ability that U.S. 
International Broadcasting has to speak to so many people in 
their own language. That is all we want to do with TV.
    Senator Grams. Yes.
    Mr. Kaufman. This is not rocket science. What we want to be 
able to do is be able to broadcast on television the same as we 
do on radio.
    The people that have the expertise almost unique in the 
whole world are our journalists, not just the ones in VOA and 
OCB, but RFE/RL and RFA. They know about how to get the news. 
And they know how to present it.
    They did not know TV. But we hired a contractor who is 
excellent at bringing people in and training them how to use 
these small video cameras. We trained over 100 audio-
journalists who are now photojournalists. They can now go out 
and get the news.
    We should send you some of the results. One of our 
photojournalists won an award in New York.
    What we want to do is be able to present the news. We want 
to be able to get to where the listeners are. People want to 
get the news on television. We want to present the news. What 
we do now in some cases, we just have a picture of a man or 
woman reading the news.
    Senator Grams. Yes.
    Mr. Kaufman. People are interested in receiving the news on 
television. We want to get way beyond that. But VOA is the 
place where this has to be, because they have the expertise in 
gathering and sending out the news.
    Mr. Mora. As a point of clarification, Senator, our 
language service review did not come to the conclusion that 
television is overwhelmingly the medium of choice. What we did 
recognize in the course of the process was that in some 
countries it was overwhelmingly the medium of choice for 
consumers.
    But we still recognize, for example, that television is not 
a factor in certain countries. For example, Afghanistan, there 
is neither any television nor is there any Internet.
    But between an Afghanistan and, say, a Moscow where--
another capital city in which television is the preferred 
medium of choice for news and information, there are many steps 
in between.
    And we have to retain the flexibility and our broadcasters 
have to retain the flexibility for picking a point in the 
continuum, the right blend of media which will most effectively 
communicate our message to those audiences.
    But having said that, let me turn it over to the VOA 
Director who otherwise I think would strangle me with this cord 
unless I give him a chance to speak.
    Mr. Ungar. Just a few words on this point, Mr. Chairman. As 
Governor Mora has stated, the language service review is an 
entirely separate process from the development of VOA TV.
    I believe that my mandate in becoming the Director of Voice 
of America was to help turn the Voice of America into a modern 
multi-media organization. And I think that is what we are in 
the process of doing with radio, television and the Internet.
    As Governor Kaufman says, our job is to get the information 
and then figure out how best to distribute it in one of these 
three media or all of these three media in each place.
    We have had a pilot project in VOA TV that has been an 
enormous success, and it would give me the greatest pleasure to 
send you some of those programs. We are doing more and more 
simulcast programs, radio and television, in languages, in the 
foreign languages.
    The key point here is that WORLDNET television, however 
wonderful a job it has done in many areas over the years, has 
very few language qualified employees. WORLDNET has the 
technicians and some of the technology. Voice of America has 
the language qualified people.
    What this really does is to preserve jobs for the Voice of 
America and not in any way eliminate them.
    Senator Grams. Other than diverse language capabilities of 
the VOA staff, would that staff be prepared to produce quality 
television broadcasts? And I guess from your answers, you feel 
that they have.
    Mr. Kaufman. They have. Our pilot program has been 
wonderful. And if you do have a chance to look at some of their 
product, it is excellent.
    Senator Grams. I would appreciate it if you could give me a 
couple of copies.
    Mr. Ungar. The videocassettes will come up with our answers 
to the other----
    Senator Grams. Very good.
    Mr. Ungar. OK.
    Senator Grams. I will look forward to that.
    What advantages might there be to maintaining an 
independent television entity under the supervisory of the 
Board? And if that were to occur, what would you change from 
the WORLDNET enterprise as it stands today?
    Mr. Mora. Mr. Chairman, We are looking at this. This is 
actually a work in progress at the Board. I am not sure that we 
have reached any hard and fast decisions as to absolutely final 
configuration of these various entities.
    But I think the arguments we have articulated here today, 
particularly the statement that Director Ungar just made to the 
effect that we have to meld the technical television skills of 
our WORLDNET employees with the language capabilities of our 
broadcasters is the trumping argument, arguing in favor of a 
consolidation of these two services in a single broadcast 
entity.
    I should add also that we are in the process of training 
and over time will train each of our VOA journalists in the use 
of the--kind of like a handicam as the basic reportorial tool.
    No longer the microphone and the cassette deck, but it is 
going to be a video camera, which will capture digital video, 
as well as sound; and it will enable our newsmen and newswomen 
to produce video and sound and Internet from the same 
technological base.
    Senator Grams. Yes.
    Mr. Mora. It will give us enormous flexibility and is 
already bearing wonderful fruit at VOA.
    Mr. Kaufman. It would require tremendous duplication. I 
mean, you would be delivering and gathering the news twice.
    Our basic approach is to come up with what the news is, and 
then send it out.
    If it goes out on television, that is fine, AM, FM, 
shortwave, Internet, whatever way it is, we would like to have 
all that consolidated in one place. I think it is the most 
efficient way to do it, and I think you would get the best 
product that way.
    Senator Grams. If and when you accrue savings from the 
reductions in service following this year's language services 
review, where do you expect to use those funds in order to 
increase your service? Where do you have the greatest need?
    Mr. Mora. Well, there are several things. One there is some 
countries that we want to do some things in. We are going to do 
some interesting things in Indonesia, in the Middle East, 
places where we want to go into and do programs to try to 
really increase our impact.
    This is all about: How do we get U.S. foreign policy out 
there--and we need impact. And we have to use some money to try 
to figure out how to do it. One of the biggest things we have 
never done, we have never spent money for promotion.
    In many countries people do not know when we are on and 
what time, and what station. Things that you and your business 
do as a matter of course, telling people when you can watch--
listen to your shows and the rest of it, we have no money for 
that.
    We have never spent a dime, as far as I know, for any of 
those kinds of things. We have got to have a more effective 
promotion system, because we are going into modern media 
markets.
    If you say, ``Well, why are we in modern media markets?'', 
Russia is a perfect example. We have got to have impact in 
Russia. And if you are in Russia right now, you are hit with 
all kinds of different modern media.
    And if you do not know where to find Radio Liberty, and you 
want Radio Liberty, because when the elections come up, the 
only place that Russians can go to get objective reporting on 
the elections was Radio Liberty.
    Or in Chechnya, the only place that Russians can go and get 
objective reporting of what was going on in Chechnya was 
through Radio Liberty, both--and Voice of America, for Chechnya 
and Voice of America for the elections. Both of these working 
together, hitting different audiences different ways. That is 
where they went. But they do not know where to find them many 
times.
    Mr. Mora. Mr. Chairman, if I could amplify, this gets to 
the heart of the process, and it is quite a complex process, 
because it is akin to three dimensional chess.
    We weigh so many variables with each of our language 
services. For example, the subcommittee knew at a certain point 
in our deliberations that we wanted to free up resources to be 
bolder in experimenting with the Internet.
    We knew we wanted to free up resources to experiment with 
marketing as Governor Kaufman has indicated. We knew we wanted 
to enhance perhaps our broadcast capability to Colombia.
    We were concerned about some reports that cultural trends 
in India may be indicating a turn away from Western traditions, 
with all that might imply. We wanted to communicate better to 
India. We knew we have to communicate better with Russia.
    And when you posit these kinds of questions, ``What does it 
take to become more effective in a particular country?'' then 
you have a limited number of variables among which to choose.
    It could be your programming is not adequate and that--the 
solution to that may not require resources, but maybe a 
readjustment of the programming mix to that particular country.
    But it could be that you do not know what it is causing the 
problem, which would argue for investment of money into 
research.
    It might be that the transmitting signal or the signal 
transmitting to the country is not effective, not a clear 
signal, which would mean an increase in broadcasting capability 
and transmission capabilities. It could be a marketing problem, 
which would argue for an increase in marketing funds.
    The specific solution to a problem presented by a 
particular country in which we are not effective could be any 
one of a number of factors, most of which would require the 
investment of additional resources.
    So the Board felt it incumbent to free up some of these 
resources so as to be able to make the investments that 
research would indicate were required, in order to increase the 
effectiveness of a country.
    So this is a generic answer to your question. And the 
answer would depend upon the specific country in question and 
upon the actual hard data that we are able to generate 
concerning what would be required in order to increase the 
effectiveness and audience share of U.S. International 
Broadcasting in that country.
    Senator Grams. What countries do you think have the highest 
listenership?
    Mr. Kaufman. Nigeria and Ethiopia.
    Mr. Mora. Bangladesh.
    Mr. Ungar. If I may, Mr. Chairman, the top five countries 
in number of listeners for VOA are China, Bangladesh, Nigeria, 
Ethiopia and Afghanistan. That is a very changed picture from 
the past. But those are our top five in absolute numbers.
    In terms of percentage penetration, the top five might turn 
out differently.
    Senator Grams. What about Europe? I suppose that has been a 
big difference, Eastern Europe.
    Mr. Ungar. Well, that is just the point. There are places 
in Europe where we have a very substantial listenership. For 
example, in the Balkans, during the Kosovo crisis last year, we 
got figures indicating that about 83 percent of Albanians in 
the refugee camps were listening to the Voice of America 
Albanian Service. And part of that was a family reunification 
program we were running.
    We also had very high statistics in the Serbian service. 
Our colleagues in Radio Free Europe had similarly high 
statistics during the Kosovo engagement and in some of those 
services.
    But there are places in Europe where our audience is way 
down. You mentioned before that there was perhaps 2 percent 
Internet usage in Poland. Well, at the moment, the audience for 
Voice of America in Poland is about 1.1 percent, lower than 
Internet usage.
    Now, at some point, we have to notice that and understand 
that while we want to continue providing information, we have 
to shift where the emphasis is.
    Mr. Mora. OK. Maybe we should have Tom Dine come up here 
and talk about Radio Free Europe/Radio Liberty. And while he is 
coming up, we want to ask Dick Richter from Radio Free Asia--
Radio Free Asia broadcasts into countries where it is almost 
impossible to find out what your listenership is.
    Senator Grams. OK. I need you to speak into the microphone 
so we have got your----
    Mr. Dine. OK.
    Senator Grams [continuing]. Voice on record here.
    Mr. Dine. Thank you, Mr. Chairman. My name is Tom Dine. I 
am President of Radio Free Europe/Radio Liberty.
    You asked for a quantitative answer, so my answer is there 
are 148 million people in Russia. Our largest audience is in 
Russia, followed by Ukraine, and then Romania. But what we look 
at are the percentages, because we are not a mass audience 
radio.
    We are trying to attract the influential persons in these 
countries. And in that case, the numbers look a little 
different. The highest percentage of listening elites in our 
area of broadcasting starts with Bosnia. And this spills over 
into Serbia. And by Serbia, I also mean Kosovo, Albanian 
Kosovars as well as Montenegrans.
    The next highest percentage is Azerbaijan. Here we have a 
dictator who has clamped down on a free press consistently over 
the last 8 years and has not always been friendly toward us.
    But our largest percentage beyond the southeastern Balkans 
is Azerbaijan, followed by Lithuania.
    There is no pattern, except to pick up on what both of our 
Governors have said, you have got to have a good program. You 
have got to attract a listening audience and tell the listening 
audience where to find us. And you have got to compete in the 
local market. And that is what we are doing.
    Senator Grams. OK. Well, thank you. Would you state your 
name and your title again, so we have that on the record?
    Mr. Dine. Tom Dine, Radio Free Europe/Radio Liberty's 
President.
    Senator Grams. Thank you very much, Tom.
    Mr. Dine. Thank you.
    Mr. Richter. Dick Richter from Radio Free Asia.
    Senator Grams. Again, would you state your name once more 
and your title?
    Mr. Richter. It is Dick Richter, President of Radio Free 
Asia.
    Senator Grams. Thank you.
    Mr. Richter. Mr. Chairman, I would just like to take the 
opportunity to say a few things about Radio Free Asia. First, I 
would like to say a word about something that Mr. Kaufman 
mentioned a short time ago about trying to advertise where we 
are heard.
    We actually have done, at the Board's behest, some 
advertising for our website on other websites at a very, very 
low cost, and in some newspapers. Actually, on other websites, 
there was no cost at all. Foreign language newspapers, we were 
able to do it at a low cost.
    And we almost were able to get a Chinese mainland website 
to run a banner ad for us. Then at the last minute, they 
realized that it would not be such a good idea, so they decided 
not to. But it was really at the 11th hour that they pulled 
out, so it is not for want of trying that we have not done 
that.
    The other thing is in Cambodia, which is one of the few 
countries--the only country that we broadcast to that we 
actually have bureau on the ground in Phnom Penh--we have been 
able to advertise in some of the local newspapers our 
frequencies and our times at, again, a very low expenditure of 
money.
    In terms of doing research and trying to figure out how 
many listeners we have in all of the countries that we 
broadcast to, China, of course, is very, very difficult.
    And we did manage to have a three-site survey done about a 
year ago, which indicated that we were the third most listened 
to international broadcast medium after VOA and BBC.
    We also are quite sure that many people were not willing to 
admit that they listened to us, because they were afraid of 
saying that they listened to us.
    On the other hand, we have some very, very courageous 
listeners who will call us every single day on 800 numbers on 
talk shows that we have, and they are connected with a 
broadcaster sitting in Washington. They ask the most outrageous 
questions and bring up the most severe criticism of the Chinese 
Government that you could possibly imagine.
    As a matter of fact, our broadcaster was saying that he was 
anticipating a bunch of questions the other day about Elian 
Gonzalez. And fortunately, he said, ``I did not have to defend 
the attorney general or anybody else,'' he said, ``because I 
would have found it a little bit difficult, because I have had 
situations which were analogous to what poor little Elian went 
through.''
    And he said, ``I felt very nervous about trying to answer 
questions like that,'' but fortunately he did not have to.
    Just the other day, we got our second letter in Chinese 
Braille. It was a letter from somebody who was fulsome in his 
praise for our broadcasts. And then he went on to criticize the 
harsh, brutal treatment of handicapped people in China. All of 
this is to say that we do have very substantial feedback on the 
kinds of things that we do.
    On jamming--to say that a broadcast service is jammed 
creates the impression, I think, understandably that it is just 
completely blocked out, that the signal just can't be heard, 
which is not really the case at all.
    And I would like to point out that in Korea, for instance, 
about 2 months ago the jamming became more intense on one 
particular frequency. But it still was not severe enough to 
block out that frequency, and the listeners were still able to 
hear our broadcast despite the fact that there was jamming.
    That is frequently the way the situation is in China too, 
because we come in on so many different frequencies that we are 
able to be heard throughout the country basically all the time.
    Senator Grams. Thank you very much, sir.
    Just a couple of quick followup questions, and then I will 
let you go. With the planned diminution of radio broadcasting 
coverage being made in Central and Eastern Europe countries, 
will there then be a redirection of resources from radio to TV 
or from radio to the Internet?
    Mr. Kaufman. No. In some places, we are going to go to the 
Internet.
    But in terms of television what has happened is a bad 
coincidence. I mean, I do not generally believe in 
coincidences, but this is a coincidence. And that is the whole 
movement between WORLDNET and VOA TV coming at the same time 
that we were doing the language service review, there is an 
impression that somehow the two are united. They are not.
    What we would be doing in television is totally based on 
transferring resources from WORLDNET to VOA TV. It has nothing 
to do with the language service review.
    In terms of the Internet, yes, we are using the Internet 
some places where we think it can be successful and places 
where we have very low listenership. And we are going to be 
looking at the Internet as a way to help us in a place like 
Poland, where our listenership is so low that the Internet 
looks attractive.
    Senator Grams. One final question, what does the drop in 
listenership indicate about the News Now formula that VOA has 
been using in the last couple of years? Again, you would have 
to agree with my premise there has been a drop in listenership, 
and then we go from there.
    Mr. Ungar. Mr. Chairman, I would like an opportunity to 
examine those figures about the listenership, by the way, 
because we believe now that we have 91 million listeners a week 
around the world, and that that does not capture some of our 
impact on the Internet, on satellite television and on some of 
our affiliates.
    Having said that, it is about a year--a little more than a 
year, I think, since VOA moved to the 24-hour-a-day News Now 
format for its English language programming.
    And, of course, any change of that sort is always going to 
be controversial. It was made before I arrived at VOA, but for 
every complaint, there is also a compliment about the fact that 
VOA news--reliable news is available 24 hours a day in English 
around the world.
    There is some repetition in it, needless to say, but I do 
not think that there is any correlation between an alleged loss 
of listenership in English and the VOA News Now format.
    Senator Grams. OK. Well, thank you very much. Any final 
comments you would like to make?
    Mr. Kaufman. Thank you for having us and giving us an 
opportunity to talk about international broadcasting, which we 
feel strongly can be incredibly helpful to the United States' 
future and the United States foreign policy.
    Senator Grams. I would like to leave the business record 
open for 3 days in case other Senators would like to, you know, 
direct some questions to you in writing. Senator Biden might or 
others.
    And then also if there is any other questions we would have 
to clarify what we have asked, we would like to submit to you, 
so we will leave the record open for 3 days. And, of course, we 
would appreciate a quick response. And I look forward to seeing 
those videos.
    All right, gentlemen, thank you.
    Mr. Mora, Mr. Kaufman, thank you.
    Mr. Mora. Thank you.
    Mr. Kaufman. Thank you.
    Mr. Ungar. Thank you.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]

                              ----------                              


                  ADDITIONAL QUESTIONS FOR THE RECORD


 RESPONSES OF EDWARD KAUFMAN AND ALBERTO MORA TO ADDITIONAL QUESTIONS
                   FOR THE RECORD FROM SENATOR HELMS

    Question 1. Did the Agency proceed with the implementation of the 
VOA-TV project before authorization from Congress or approval of the 
reprogramming request for transfer of Worldnet assets to VOA-TV?

    Answer. No. At this time, the Broadcasting Board of Governors (BBG) 
has not proceeded with the merger of Worldnet into the Voice of 
America. We are still awaiting approval of our reprogramnming request 
by oversight committees in Congress.
    In terms of background on the genesis of this project, the 
conference report on the fiscal year 1998 appropriation encouraged the 
BBG to review current television programming and explore new ways to 
broadcast internationally in this medium. In response, the BBG informed 
the Congress of a pilot project called VOA-TV in September 1998 (letter 
attached). In August 1999, we sent our respective oversight committees 
another letter detailing the successes of the pilot project and our 
plans to expand the transition to VOA-TV (also attached).
    In February 2000, the BBG sent a reprogramming letter to several 
congressional committees, including the Committee on Foreign Relations, 
proposing to merge Worldnet resources into the Voice of America, 
thereby creating a component within the VOA called VOA-TV. The 
rationale for this merger is to take maximum advantage of the 53 
languages spoken by VOA employees by transmitting in the medium of 
television to target audiences that prefer to receive news and 
information via TV.

                   Broadcasting Board of Governors,
                                 330 Independence Ave., SW,
                                Washington, DC, September 25, 1998.

The Honorable Jesse Helms,
Chairman, Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:
    The Broadcasting Board of Governors (BBG) wishes to inform the 
committee of an amended proposal for application of savings identified 
within the Fiscal Year (FY) 1998 International Broadcasting Operations 
(IBO) appropriation. This letter supplements the August 20, 1998, 
letter which proposed planned redistributions within the IBO account, 
as well as an appropriations transfer to the Radio Construction 
account.
    In our August 20th letter, we identified an estimated availability 
of $9.014 million, resulting from a third-quarter review (through June 
30, 1998) of IBO funds. Since then, we have conducted a final end-of-
year review and identified additional savings of $1.05 million that was 
earmarked for transmission costs of the surrogate Farsi broadcasts into 
Iran.
    Earlier this year, we presented a plan to the Congress which 
identified a total of $2.6 million to initiate a surrogate Farsi 
service in Radio Free Europe/Radio Liberty (RFE/RL). Of this amount, a 
total of $1.55 million was allocated to RFE/RL for start-up and 
operations of the new service. The remaining amount, $1.05 million, was 
allocated to the IBB's Office of Engineering for transmission costs 
into Iran. Since that plan was approved by the Congress in late May, 
1998, we have moved forward in implementing the new service. We have 
recently hired a Service Director, secured office space for the Farsi 
service in Prague, and are in the final stages of hiring the 
appropriate staff and refurbishing the office. However, we project that 
Farsi broadcasting will not commence until early in FY 1999. As a 
result, we do not anticipate utilizing any of these transmission funds 
in FY 1998.
    In light of the combined availability of $10.064 million, Agency 
staff have been engaged in discussions with Appropriations Committee 
staff in both the House and Senate, concerning the most appropriate 
utilization of these funds. As a result, we have identified the total 
amount of favorable exchange rate gains realized within FY 1998 and 
would like to propose transferring the entire amount, $4.828 million, 
to the Buying Power Maintenance account. We feel it would be prudent at 
this time to transfer these favorable gains so that potential 
downshifts in the U.S. dollar's value internationally could be negated 
to the maximum extent possible. The remaining availability, $5.236 
million, would be dedicated to the most critical of the projects 
identified in our August 20th letter. Specifically, the BBG would like 
to propose the following reprogramming and transfer actions:



------------------------------------------------------------------------
             Iran                  Amount                Action
------------------------------------------------------------------------
Audience Research............        $750,000  Reprogram from within IBO
VOA-TV Consulting Services...        $170,000  Reprogram from within IBO
Technical Operations Area      \1\ $1,450,000  Reprogram from within IBO
 Fire Safety Project.
Solid State modulators.......      $2,866,000  Transfer to Radio
                                                Construction
IBO Exchange Rate Gains......      $4,828,000  Transfer to Buying Power
                                                Maintenance account
  TOTAL......................     $10,064,000  Total surplus identified
------------------------------------------------------------------------
\1\ Please note that this cost estimate increased from the estimate of
  $1,300,000 included in the August 20, 1998, letter.


    We also wish to inform the committee of an initiative related to 
television. Last year, in the FY 1998 House Appropriations Committee 
report, H.R. 2267, the BBG and the International Broadcasting Bureau 
(IBB) were urged to develop a ``streamlined, low-cost television 
component to news and information broadcasting in local languages . . 
.'' (p. 129). In light of this direction and, in recognition of the 
changing world media consumption patterns, we undertook a comprehensive 
review of our television operations, changes in television technology, 
and of how best to use existing resources within IBB, WORLDNET 
television, and the Voice of America (VOA) to meet the objectives set 
forth by the Congress and to maximize the global audience for U.S. 
international broadcasting. In our review, we have identified a number 
of technological and broadcasting changes which create substantial and 
unique opportunities for U.S. international broadcasting. We now 
propose to hire consultants to conduct a television pilot project (our 
August 20th letter identified a reprogramming request of $170,000 for 
this purpose). We believe, based on our assessments, that changes in 
broadcast technology and the extensive language and field network of 
the VOA provide an enormous opportunity to produce high-quality, low-
cost television in local languages around the world. The Broadcasting 
Board of Governors will report to the Congress no later than April 1, 
1999, on the results of the pilot project and will propose, at that 
time, any organizational changes relating to this initiative.
    We have consulted with the Director of the U.S. Information Agency 
on the substance of this letter and he concurs in these proposals. 
Please refer to Enclosure A for the specific breakout proposed for 
funding shifts between accounts. As always, we appreciate the 
committee's support for international broadcasting.
            Sincerely,
                                     David Burke, Chairman,
                                   Broadcasting Board of Governors.

    [Enclosure A]

    United States Information Agency--Summary of International Broadcasting Operations FY-1998 Reprogramming
                                              [Funds in thousands]
----------------------------------------------------------------------------------------------------------------
                                                       Current 1998
                                                         Estimate        Proposed 1998 Plan      Net Changes
----------------------------------------------------------------------------------------------------------------
Broadcasting Board of Governors..................               $1,400               $1,400                   --
  International Broadcasting Bureau:
    Voice of America.............................              101,172               99,642              (1,530)
    Unallocated Funds............................                1,347                   --              (1,347)
    WORLDNET Television and Film Service.........               21,559               21,470                 (89)
    Engineering and Technical Operations.........              114,264              108,907              (5,357)
    Program Support..............................               14,963               15,422                  459
    Administrative Support.......................               12,854               13,024                  170
                                                  --------------------------------------------------------------
      Subtotal, International Broadcasting Bureau              266,159              258,465              (7,694)
  Independent Grantee Organizations:
    Radio Free Europe/Radio Liberty..............               69,969               69,969                   --
    Radio Free Iraq..............................                5,000                5,000                   --
    Radio Free Asia..............................               24,100               24,100                   --
                                                  --------------------------------------------------------------
      Total, International Broadcasting..........              366,628              358,934              (7,694)
Office of Cuba Broadcasting......................               24,882               24,882                   --
Radio Construction...............................               40,000               42,866                2,866
Buying Power Maintenance Fund....................                   --                4,828                4,828
                                                  ==============================================================
      TOTAL......................................              431,510              431,510                   --
----------------------------------------------------------------------------------------------------------------


                   Broadcasting Board of Governors,
                                 330 Independence Ave., SW,
                                    Washington, DC, August 6, 1999.

The Honorable Jesse Helms,
Chairman, Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:
    The Broadcasting Board of Governors (BBG) wishes to update the 
committee on the pilot project we have been conducting to explore 
options of enhancing our television capabilities. As we informed you 
last September, based on our assessments, changes in broadcast 
technology and the extensive language and field network of the Voice of 
America (VOA) provide an enormous opportunity to produce high-quality, 
low-cost television in local languages around the world.
    In October 1998, with your approval, the BBG launched a pilot 
program under the rubric of VOA-TV. While, prior to the pilot, VOA had 
produced some television broadcasts, this programming was generally 
limited to simulcasts of its radio shows and was somewhat basic in its 
scope. As you know, the VOA-TV pilot project has been designed to test 
three premises: (1) whether VOA could train journalists in the use of 
digital equipment and convergence technology to produce reports usable 
simultaneously on radio, television and the Internet, (2) whether the 
unique ability of the VOA's 53 language services to communicate with 
local audiences could be used to reach rapidly expanding audiences in 
television and on the Internet; and (3) whether the existing assets and 
funding of the Worldnet Television and Film Service and the VOA could 
be consolidated to create economies of scale that would produce, for 
the same amount of funding, more high quality television programming in 
additional languages worldwide.
    To test these premises, the International Broadcasting Bureau 
(IBB), using the existing resources of VOA, Worldnet, and the multi-
year Digital Broadcasting Project, acquired small format digital 
cameras and digital editing equipment that have both broadcast quality 
video and audio elements. It also retained Michael Rosenblum Associates 
(MRA), a global leader in this medium, to train approximately 45 
journalists, producers, and directors from VOA and Worldnet in the use 
of the new equipment and to supervise production of video journalist 
reporting.
    The BBG believes the pilot project has been an immense success. The 
MRA training sessions have demonstrated that VOA and Worldnet 
journalists can, using this newly developed digital platform, ``produce 
high quality reports that can be utilized alternatively for television, 
radio or the Internet, as internal production demand requires. This 
ability, coupled with the unique language skills of VOA journalists and 
the extensive network of overseas bureaus and stringers, can lead to 
the creation of a unique global television network--one, which can 
produce in-depth news and information in dozens of languages. In 
addition, we have begun working with directors and producers to enhance 
the quality of simulcast radio shows, adding more video roll-ins and 
high quality graphics to make the shows more attractive to potential 
viewers: These simulcasts will produce a steady stream of programming 
for VOA-TV. Our discussions with potential rebroadcast affiliates 
ranging from Russia and Kosovo to Indonesia and Haiti indicate that 
there are enormous possibilities for placement of this programming. We 
believe, based on the results of the pilot project, that high quality 
productions in local languages could greatly expand the reach and 
audience for U.S. international broadcasting, through a shifting of 
base resources.
    Our experience with VOA-TV thus far indicates that it is the best 
use for television broadcasting assets. While Worldnet continues to 
make important contributions to U.S. Government-sponsored international 
broadcasting, we believe that the impending independence of 
international broadcasting and the shift of Interactive Dialogues to 
the Department of State make FY 2000 an appropriate time to restructure 
our television operations. At the outset of FY 2000, we will submit a 
reprogramming proposal, describing in detail our intentions to shift 
Worldnet assets to VOA.
    Until then, we plan to continue and expand the VOA-TV pilot 
project. To date, we have begun the transition of our conventional 
radio studios to radio/TV simulcast studios, and we have initiated a 
pilot project for two-way interactive video and audio on the web. Our 
plans to continue the VOA-TV project include the following:

    --Continue and expand the training of the videojournalists (VJs).

    --Begin to modernize the VOA bureaus in London, New York and Los 
Angeles so that they can accommodate video journalism and T3 lines so 
that they can feed into Washington programming.

    --Bring a robotic radio/TV simulcast studio on-line, to augment 
conventional television facilities.

    --Expand the website toward video capability.

    --Initiate a Russian Language Magazine program to test the audience 
market overseas.

    --Continue to work closely with the AFGE union on affected 
employees throughout this period, engaging in an on-going dialogue on 
the implementation of VOA-TV.

    The BBG, IBB, and VOA will be intimately involved in reviewing and 
modifying existing programming, in an effort to meet the needs of our 
current audience, while appealing to additional markets and viewers. 
Once approved by Congress, all current Worldnet employees will be 
transitioned into similar positions within VOA in an orderly manner, 
with re-training throughout the organization to take maximum advantage 
of the new technology available to these journalists. Through the use 
of this new technology, the IBB will be able to produce better, more 
directly ``mission'' related broadcasts within existing base funding.
    We would like to assure the committee that throughout the 
transition from Worldnet to VOA-TV, Worldnet's existing support for 
U.S. Government foreign policy initiatives will be maintained and 
access to IBB television studios facilities, and the satellite delivery 
system will continue unabated. VOA-TV's global capability makes it 
uniquely suited to deal with surge broadcasting. The VOA will continue 
to place major figures on the air, not just in radio, but on television 
and the web as well. As with VOA radio today, the BBG is committed to 
establishing a system and infrastructure to make television 
broadcasting available on a 24-hour basis as needed.

    Question 2. You speak about free and open media in the countries of 
Central and Eastern Europe as a justification of diminution of 
broadcasting there. How much programming does the media in those 
countries devote to U.S. foreign policy issues (as VOA's Charter 
requires VOA to cover)? Given recent restrictions on domestic media in 
Hungary and government and party control of many stations in Poland, 
how fully independent are the media in the region?

    Answer. Since 1990, Freedom House has rated the media of both 
Poland and Hungary as free. An independent and professional media is 
the best guarantor of coverage of all points of view, including the 
U.S. point of view. However, it would be rare that media anywhere would 
focus on U.S. foreign policy issues and provide congruence with that 
aspect of the VOA Charter. For instance, this does not exist in the 
United Kingdom or Germany, and we would not expect Poland and Hungary 
to be exceptions. VOA will still fulfill its Charter with regard to 
these countries by providing news feeds to affiliated radio and 
television stations and by providing news and information via the 
Internet to news outlets and individuals. We expect that with time, VOA 
will reach a larger number of people through these methods of program 
placement. Synopses of the media environments in Hungary and Poland 
follow.
    Hungary. All the major print media--national and regional 
newspapers, magazines, and tabloids--are in private hands, some as part 
of foreign media companies. The print media enjoy considerable freedom, 
although journalists and opposition politicians are concerned that the 
expression of different views in the press may be circumscribed by the 
small number of owners who control most of the print media. Currently 
around 70 percent of radio and television are privatized. There are 
three national public television channels and 26 commercial channels. 
Approximately thirty private radio stations operate around the country, 
though no national stations are in private hands. As of 1997 (latest 
available data), forty percent of TV households had cable subscriptions 
and twenty-two percent had access to satellite television.
    Poland. The constitution provides for freedom of speech and the 
press, and the Government generally respects this right. There are ten 
commercial television stations. State-owned TVP channels 1 and 2 
continue to dominate, holding about one-half the market share. Close to 
another third of market share is held by privately-owned POLSAT, and 
the remainder divided among smaller national and local networks. Radio 
remains influential in Poland and is a highly competitive market. There 
are 119 commercial radio stations, including six national stations, 
five of which are state owned. Many local radio stations have started 
to unite within networks to compete for nationwide advertising budgets 
with public and nationwide commercial stations. Poland's print media 
are led by several outstanding dailies and a few tabloids. Each 
publication presents a particular political and economic affiliation or 
stance. Relatively small in print runs, Poland's newspapers serve to 
frame the issues for the rest of the media, and hence the nation. 
Perhaps the most interesting aspect of Poland's media has been the 
phenomenal growth of specialized publications, ranging from economic 
and trade journals, to specialized technical publications, to local 
versions of women's and men's magazines.

    Question 3. Based on estimates which the broadcasting organizations 
have no doubt made, could you give us figures on the number of 
listeners globally of VOA and RFE/RL per week for each of the last ten 
years? Has there been a decline in VOA listenership?

    Answer. Research shows that the global audience for VOA 
listenership has remained relatively stable over the last five years. 
Prior to the creation of the IBB Office of Research in 1997, USIA's 
Office of Research was responsible for calculating VOA's global 
audience. During the period of 1990 through 1993, they produced no 
estimates for VOA's audience.
    Drawn from estimates by both the USIA and IBB Offices of Research, 
VOA's global audience for the period of 1994 through 1999 remained 
fairly stable. The numbers are:

        1994  92 million
        1996  86 million
        1997  83 million
        1998  86 million
        1999  91 million

    Because there is a margin of error in calculating these global 
figures, statistically, VOA's audience has been stable for the past 
five years. (Note: USIA did not produce a global audience estimate for 
1995.)
    Within the global estimates, there have been significant trends. 
Listenership dropped considerably in Eastern Europe and the Former 
Soviet Union from 1994 to 1999, from 21 million to 9 million. Other 
international broadcasters such as the BBC and Deutsche Welle 
experienced similar trends, due to circumstances within the target 
countries, principally competition from local media. During this same 
period, VOA's audience on the African continent grew from 20 million in 
1994 to 36 million in 1999. In essence, each region comprised 
approximately 22-23% of VOA's global audience in 1994. However, in 
1999, Eastern Europe and the Former Soviet Union made up 10% of VOA's 
worldwide audience, while African listeners comprised 40%.
    RFE/RL has maintained a leading position among international 
broadcasters at a time when listenership to all international radios in 
the vernacular languages is declining throughout RFE/RL's broadcast 
region. Well over half of all regular listeners to international radio 
in RFE/RL's 24 country broadcast region are listeners to RFE/RL. This 
translates to between 13 and 18 million regular listeners weekly. Of 
the total audience to international radio reached in the course of 12 
months, almost two thirds--between 34 and 46 million listeners--listen 
to RFE/RL.
    RFE/RL is particularly effective in reaching political, 
governmental, media, cultural and business decision-makers and opinion-
makers. In studies of elites carried out in thirteen countries, RFE/RL 
has an average regular listenership of 28 percent and an average 12 
month reach of 60 percent. The RFE/RL audience size has stabilized in 
most countries after the initial drop from the 1988 to 1993 period. 
Listenership has increased dramatically at times of political crisis 
such as the Russian government's financial collapse in August 1998 or 
the NATO-Serbia military conflict in 1999.
    Available audience data for the past decade follows. In 
interpreting this set of data, it should be noted that numbers are not 
available for all years, and that in-country research began only in 
1991. During this period, listenership to all short wave broadcasters 
declined. In those countries where RFE/RL has been able to get a 
significant number of reliable, in-country FM and AM rebroadcasters, 
its listening rates have risen.


                                             [In millions, rounded]
----------------------------------------------------------------------------------------------------------------
                  Year                         Weekly Listeners                  12-Month Listeners
----------------------------------------------------------------------------------------------------------------
2000...................................                           16   40 (includes Iran and Iraq)
1999...................................                           13   38
1998...................................                           13   39
1996...................................                           24   61 (includes Poland)
1995...................................                           24   61
1994...................................                           25   60
1993...................................                           26   57 (includes Hungary)
1992...................................                           24   --
1990...................................                           --   65
----------------------------------------------------------------------------------------------------------------


    Question 4. There is a significant difference between the role of 
VOA and that of the ``surrogate services'' which seek to fill a void 
where a free press does not exist. But could you please compare the 
services under the Board's supervision in another respect. Can you 
compare the management, cost-effectiveness, and impact of the 
operations run within the government (as VOA is) and those run as 
independent, private entities (such as Radio Free Europe/Radio Liberty 
and Radio Free Asia)?

    Answer. As with many federal and federal grantee organizations, 
direct comparisons on management and operations are difficult to make, 
given the specific organizational authorities and guidelines that 
differentiate and govern a federal entity and a federal grantee 
organization. This difference is particularly pronounced regarding the 
flexibility of procurement and personnel practices. Government 
organizations are required to work within and to meet the uniformed 
standards of the Federal Acquisition Regulations (FAR) and the federal 
personnel system.
    It is also important to note that a large portion of the budget of 
U.S. international broadcasting, approximately $111 million for 
engineering and technical services, is administered centrally under the 
International Broadcasting Bureau (IBB) to provide transmission and 
other support for all of the international broadcasting services. 
Because nearly one-quarter of the BBG's total budget resources are 
managed centrally to serve all transmission needs, most of the 
significant procurement contracts for transmission facilities 
administered by the IBB are administered according to Federal 
contracting procedures under the FAR. This allows all of the service 
entities to take advantage of BBG investments in transmission 
resources, benefiting from economies of scale in the critical areas of 
transmission, research, and marketing.
    As you know, the Voice of America's mission includes the mandate to 
represent America and present a balanced and comprehensive projection 
of significant American thought and institutions. VOA is also required 
to present the policies of the United States clearly and effectively. 
In conjunction with these mandates, it is logical that the VOA's 
workforce would consist of Civil Service employees with all of the 
benefits that other federal employees enjoy. RFA and RFE/RL, as U.S. 
Government grantees, operate under personnel rules more closely aligned 
with private sector systems, although the Board encourages a policy of 
essential pay comparability among employees of all of the service 
entities.
    The Voice of America's budget for FY 1999 was $106 million, 
employing 1,152 people to broadcast in 53 languages around the world 
utilizing 912 weekly broadcast hours. Radio Free Asia operated with $22 
million, employing 248, and broadcasting in 10 languages for 225.5 
hours per week. Radio Free Europe/Radio Liberty, with a budget of 
approximately $75 million (inclusive of one-time start up costs for 
Radio Free Iraq), employed 476 people in FY 1999, broadcasting in 26 
languages for 830 hours per week. Although these figures do not invite 
a direct budget comparison, they do indicate some degree of 
comparability among the various service entities.
    Please note that it's difficult to assess productivity levels based 
strictly on expenditures per broadcast hour. Each of the entities is 
unique in its mission, history, and target area. While Radio Free Asia 
might have a higher average cost per broadcast hour than Radio Free 
Europe/Radio Liberty based upon total expenditures, it could be the 
result of higher rent costs (RFE/RL currently pays $1/month in Prague). 
However, RFA also benefits from a lower average salary in each language 
service due to the relatively short tenure of employees in an 
organization that began its broadcasts in 1996. Conversely, RFE/RL and 
VOA have broadcast for over half a century and employ a workforce that 
has been with the organization longer, equating to higher salaries.
    VOA's mission to broadcast about the world to the world creates 
inefficiencies due to the vast scope of its mandate. As non-profit, 
private organizations, RFA and RFE/RL have greater flexibility than 
federal entities in personnel management. Because RFA and RFE/RL staff 
are neither government employees nor unionized, employees can be hired 
when available. Conversely, employees are also ``at will'' personnel, 
meaning that either the employee or the broadcaster may terminate the 
employment contract with appropriate notice.
    At the same time, RFA and RFE/RL must operate under the same 
budgetary and staffing limitations and regulations as any entity that 
receives an appropriation from the Congress. For example, RFA and RFE/
RL cannot hire more than the authorized number of employees, and is 
accountable to Congress through the Broadcasting Board of Governors for 
spending their appropriated funds as Congress authorized. Unlike some 
other federal grantees, RFA and RFE/RL are also required to receive and 
expend funds as any federal agency does. They receive funding in 
monthly allotments based on an annual financial plan, and must spend 
annual appropriations by the end of each fiscal year, rather than carry 
forward remaining balances.
    The Broadcasting Board of Governors is cognizant of the realities 
of these unique organizations and has taken steps to ensure uniformity 
wherever feasible and cost-effective. The Board continues to look 
across the organizations, public and private, to apply ``best 
practices'' in ways that make sense for overall efficiency and 
effectiveness. We are proud of each of our operations, the way they are 
managed respectively, and the impact they make around the world each 
day.

    Question 5a. Who jams American broadcasts?

    Answer. The BBG broadcasts of Radio Marti, Radio Free Asia and the 
Voice of America suffer from jamming of various types. The language 
services affected by this jamming include:


------------------------------------------------------------------------
         Broadcaster                Language          Source of Jamming
------------------------------------------------------------------------
OCB.........................  Spanish               Cuba
RFA.........................  Korea                 North Korea
                              Mandarin              China
                              Tibetan               China
                              Uyghur                China
                              Vietnamese            Vietnam
VOA.........................  North Korea           North Korea
                              Mandarin              China
                              Tibetan               China
------------------------------------------------------------------------


    For approximately three weeks prior to the recent elections in 
Iran, VOA, RL and BBC Farsi/Persian broadcasts were heavily jammed. 
This jamming ended almost immediately after the elections and there is 
no jamming of Farsi/Persian programs from VOA, RL or BBC at present.
    RFE/RL broadcasts are no longer jammed by any country in the RFE/RL 
broadcast region, which now includes Iran and Iraq. But, some of the 
region's governments do impose ``restrictions'' from time to time. 
During the last six months, there have been several examples of 
governments failing to rebroadcast RFE/RL programs on local state-owned 
medium wave of FM transmitters in Armenia, Russia, and Kazakhstan.

    Question 5b. Which governments devote the most effort and resources 
to jamming?

    Answer. If one assumes that it takes roughly the same amount of 
effort and resources to jam any one hour of progranuning without regard 
to the language or location of the broadcast, then one measure of 
resources required is the number of transmitter hours jammed by any 
given country.
    The following is a table of the number of daily transmitter hours 
of BBG programming jammed by various countries. Each broadcast hour is 
broadcast from a number of transmitters simultaneously to combat 
jamming and changing radio propagation conditions:


----------------------------------------------------------------------------------------------------------------
                                                                                                      Daily
                Country                   Total Daily         Broadcaster           Language       Transmitter
                                          Jammed Hours                                                Hours
----------------------------------------------------------------------------------------------------------------
China.................................  242              VOA                          Mandarin               92
                                        ...............  .....................         Tibetan               13
                                        ...............  RFA                           Mandann              100
                                        ...............  .....................         Tibetan               34
                                        ...............  .....................          Uyghur                3
Cuba..................................  93               OCB                           Spanish               93
Vietnam...............................  14               RFA                        Vietnamese               14
North Korea...........................  13               VOA                            Korean                7
                                        ...............  RFA                            Korean                6
----------------------------------------------------------------------------------------------------------------


    Question 5c. How is the jamming impeding the reach of our 
broadcasting?

    Answer. In general, jamming hinders but does not prevent the public 
from listening to short wave broadcasts. The jamming is generally 
against all frequencies and all hours of a given language broadcast. 
The effectiveness of the jamming varies greatly in large geographic 
target areas, such as China and Tibet, but is fairly uniform in smaller 
target areas such as Korea and Vietnam.
    In large cities in China, such as Beijing and Shanghai, where the 
BBG has a remote monitoring capability, jamming is particularly 
effective. Travelers outside large urban centers--where the primary 
mode of jamming is ``skywave''--note improved reception. This has led 
to speculation that the Chinese may be employing ``local'' or ``ground 
wave'' jamming near larger cities. We have no direct evidence of this, 
but these same characteristics were noted in the former Soviet Union 
and Eastern Europe--where we know groundwave jamming was employed--
before jamming ceased in 1987.
    China jams 21 of RFA's 24 hour per day broadcasts to China and 
Tibet. RFA's three hours of daily Cantonese broadcasts are jam free. In 
spite of China's jamming efforts, RFA is being heard throughout the 
country. RFA has received calls and letters from virtually every 
province and autonomous region in China.

    Question 5d. In particular, could you report on the efforts and 
resources spent by China's government to jam VOA or Radio Free Asia 
broadcasts?

    Answer. We assume that the cost of jamming a single frequency is at 
least as much as the cost of broadcasting the original program on one 
frequency. We say ``at least'' because it is clear that most jamming 
involves multiple transmitters on each frequency but the power output 
of each transmitter is probably lower than that of the original 
broadcast.
    The annual cost of transmitting all 192 daily transmitter hours of 
RFA and VOA Mandarin is $5.4 million. We assume then, that if the 
Chinese were purchasing power and transmission resources at the same 
rate we are, that they would be spending at least $ 5.4 million to jam 
RFA and VOA Mandarin language programs.
    Anecdotal reports from several RFA listeners in China indicate the 
Chinese government has erected several new jamming stations and/or 
upgraded old facilities around major metropolitan areas in China. These 
jamming stations are expensive to operate because they require great 
amounts of electrical power and must be manned around the clock.

    Question 6. Is VOA programming too long in form--a hold over from 
Cold War era format suited to the short wave listener and somewhat 
older listeners? Does a longer format make it hard to attract younger 
listeners and to place programming on radio affiliates around the world 
(increasingly the method of choice for broadcasting as compared to 
short wave)?

    VOA broadcasts go to almost every country in the world except North 
American and Western European ones. Therefore, VOA is confronted with a 
wide variety of media markets, levels of competition, and newsgathering 
preferences. Throughout Europe, for example, audiences use television 
as their primary source of information. In Africa, radio is the 
dominant (sometimes only) means of newsgathering available in rural 
areas and some cities. Television, AM and FM are on the rise in African 
cities, however. Generally, most recent research has indicated that the 
average time spent listening to international broadcasts (across all 
media) is 15-30 minutes. VOA has found that longer programs do not 
always equate with more listeners.
    Furthermore, the diversity of transmission options requires VOA to 
provide programs in a number of different formats. Some services (e.g., 
Thai, Brazilian) are exclusively ``feed'' services, delivering 
newsfeeds to affiliates several times a day and occasional features, 
but having no direct broadcasts on short wave or AM. Other services 
(e.g., Mandarin, Burmese, Farsi) have no affiliated stations in the 
target regions and must rely on direct short wave, AM, television/
satellite or Internet broadcasts. The programs may be of different 
formats and lengths accordingly.
    In Eastern and Central Europe, VOA has found that only smaller, 
less popular and less commercially viable stations are willing to take 
one- to two-hour long blocks of programs. And these programs may not be 
placed in high listenership time slots. This limits VOA's ability to 
reach a large or diversified audience in increasingly competitive 
markets. With the changes being implemented by VOA in FY2000 in several 
Eastern and Central European language services, shorter news feeds in 
radio and television will increase the attractiveness of VOA programs 
to larger, more powerful stations, and increase the number and variety 
of listeners with access to VOA's information.

                                 ______
                                 

 RESPONSES OF EDWARD KAUFMAN AND ALBERTO MORA TO ADDITIONAL QUESTIONS
                  FOR THE RECORD FROM SENATOR FEINGOLD

    Question 1. I know that there is some real enthusiasm within the 
BBG for possibilities presented by the Internet and television. But I 
also know that in sub-Saharan Africa, it will be a long time before any 
mode of communication besides radio makes sense. Please describe your 
long-term plans for broadcasting to Africa?

    Answer. Radio remains the dominant newsgathering and entertainment 
medium throughout sub-Saharan Africa. In fact, approximately 40% of VOA 
worldwide audience is in sub-Saharan Africa. VOA will continue to 
devote the bulk of its African-targeted resources to radio. Short wave 
transmission stations in Botswana, Morocco, Sao Tome, Sri Lanka, Greece 
and North Carolina give VOA outstanding coverage across the continent. 
Medium wave (AM) in Botswana, Sao Tome, and Greece augment this 
coverage in certain regions of the continent. VOA plans to maintain 
these direct broadcast facilities serving African listeners.
    Two affiliate marketing offices are planned for Africa, with the 
first, in Abidjan, Cote d'Ivoire already open. These offices will work 
closely with stations to support and expand our affiliate network. By 
the end of this fiscal year, for example, VOA will have a virtually 
unbroken string of affiliates along the densely populated coast line of 
West Africa from Abidjan in the West to Port Harcourt, Nigeria in the 
East. Other recent affiliate progress has been made in the Great Lakes 
region, including a powerful AM station in Mwanza, Tanzania that covers 
much of Tanzania, Kenya, Uganda, Rwanda, Burundi and parts of eastern 
Congo (DRC). A string of stations in Mozambique have also recently 
agreed to be VOA affiliates for Portuguese and English broadcasts.
    In addition to affiliations, VOA will seek to purchase FM licenses 
in selected larger African cities. Recently, Kenyan President Daniel 
Arap Moi agreed to let VOA broadcast 24-hours-a-day in Nairobi, and 
other similar deals will be pursued in high priority cities in Africa.
    Finally, while radio is dominant, television and the Internet are 
not completely useless in Africa. Worldnet Television, in conjunction 
with VOA's Africa Division, has had a great deal of success placing a 
weekly public affairs program called Africa Journal on stations in 
larger cities across the continent. The relative dearth of well 
produced programs focussing on Africa makes this program extremely 
valuable to affiliates and popular with audiences. A radio/television 
call-in simulcast program hosted by VOA's popular Uganda broadcaster 
Shaka Ssali is planned for development later this year. In addition to 
these English programs, we are planning to create a simulcast program 
for Africa in French. Finally, experiments with placing Africa Division 
programs on the Internet and taking e-mail-questions from listeners are 
showing some signs of success. Internet components of VOA programs to 
Africa will be expanded as necessary to reach the growing audience with 
access, especially at universities, NGOs, media outlets, and in larger 
cities.

    Question 2. What is the current status of the Radio Democracy for 
Africa initiative? What new approach does it represent?

    Answer. President Clinton proposed Radio Democracy for Africa (RDA) 
in March 1998 during his trip to the continent. VOA sought 
reprogramming authority in FY1998 and FY1999 to create 13 hours of 
programs in the Africa Division (8 new hours plus 5 restructured hours) 
for RDA. This authority was granted by the House but was denied by the 
Senate. Funds for RDA were requested in VOA's FY2000 budget submission. 
However, while VOA was given permission to create RDA programming, it 
was not given additional funds to enhance Africa Division programs. 
Faced with a funding deficit in FY2000, VOA has been unable to fund RDA 
internally. While some services were able to expand broadcasting in 
response to particular outbreaks of violence or other crises in FY1999, 
all such expansions were scaled back to original programming levels at 
the start of FY2000.
    VOA remains extremely interested in enhancing its programming to 
Africa by developing programs specifically designed to discuss violence 
prevention, conflict resolution, justice and reconciliation, and 
democracy building themes and topics. We feel that VOA is uniquely 
positioned to provide this programming and to combine it with training 
and other activities to strengthen the media and increase the chances 
that democracy will take root. Given our current funding limitations, 
such program enhancements are impossible at this time.
    However, we have recently been awarded a grant from USAID's Office 
of Transition Initiatives to enhance programming in Hausa and English 
to Nigeria. This grant will allow VOA to develop special conflict 
resolution and democracy building programs, recruit and train 
stringers, and provide other training programs to Nigeria-based 
journalists. We are seeking other alternative funding sources to 
develop democracy building programming in the absence of appropriated 
funds to implement the Radio Democracy for Africa initiative.

                                 ______
                                 

                   STATEMENT SUBMITTED FOR THE RECORD


              PREPARED STATEMENT OF THE SAVEVOA COMMITTEE

    Mr. Chairman and Members of the committee, the members of the 
SaveVOA Committee, comprised of retired and present employees of the 
Voice of America, our country's broadcasting voice to the world, thank 
you for the opportunity to have our remarks included in the record of 
the April 26 hearing on Broadcasting Priorities before the Subcommittee 
for International Operations of the Senate Foreign Relations Committee.

                               QUO VADIS

    In 1994, in a plan submitted to the President after the enactment 
of P.L. 103-236 which dealt with the consolidation of international 
broadcasting, the IBB Chairman of the Board stated that ``the devil is 
in the details.'' Almost six years have passed since that statement was 
written. With the present situation at the Voice of America, faced with 
an apparently dwindling listenership in the English and language 
services, a deteriorating sense of mission and employee morale, those 
unresolved details have returned to bedevil an institution which, since 
its inception, has been a beacon of hope and freedom to the nations of 
the world as well as a most effective arm of U.S. public diplomacy.
    In our opinion, programming changes for international radio should 
have been formulated ten years ago in the wake of the fall of the 
Berlin Wall and the resulting changes in the media environment in 
Eastern Europe and the Soviet Union. With the consolidation of 
international broadcasting in 1994 and subsequently, the changed status 
of the International Broadcasting Bureau as an independent agency, 
there should have been serious research and discussion conducted as to 
potential changes in VOA programming. Indeed, Section 1323 of the 
Foreign Affairs Reform and Restructuring Act of 1998 calls for the 
Director to organize and chair a coordinating committee to examine and 
make recommendations to the Board on long-term strategies for the 
future of international broadcasting. In addition to representatives of 
RFA, RFE/RL, the BBG as well as VOA, OCB and WorldNet on this 
coordinating committee, if indeed the committee is operative, we 
recommend the inclusion of other representatives, for example, experts 
from academia such as Ms. Ellen Mickiewicz of Duke University who has 
written on the changing media environment in the former Soviet Union, 
Dr. S. Frederick Starr, formerly of the Woodrow Wilson Institute, 
Tulane University and Oberlin College and author of ``Red and Hot: The 
History of Jazz in the Soviet Union,'' as well as former members of 
Congress such as Indiana Congressman Lee Hamilton and former California 
Congressman, Robert Dornan. This task force could also include, as 
appropriate, directors of various ethnic organizations such as the 
Polish-American Congress, the Central & East European Coalition, Joint 
Baltic American Committee as well as current members of congressional 
committees such as the Human Rights and the Central European caucus. 
This blue-ribbon bipartisan task force project which could make 
recommendations on present and future IBB programming could be funded 
through the IBB Office of Research.

                             RAISON D'ETRE

    Section 1321 (2) of the Foreign Affairs Reform and Restructuring 
Act states that open communication of information and ideas among the 
peoples of the world contributes to international peace and stability 
and the promotion of such communication is in the interests of the 
United States. Section 1321 (4) states that international broadcasting 
is, and should remain, an essential instrument of U.S. foreign policy.
    In this regard, The SaveVOA Committee believes that the diminution 
of broadcasts to the Central and East European Services, as well as the 
Baltic countries seriously compromises U.S. national interests in those 
countries as well as thwarting the role of VOA broadcasts as an 
essential instrument of U.S. foreign policy as defined by the Foreign 
Affairs Reform and Restructuring Act.
    Under the proposed plan of the Board of Governors, the affected 
services will be reduced to a bare-bones operation adding video and 
Internet functions. In essence, the Board's decision is tantamount to 
closing the services as the two or three remaining staffers cannot 
possibly prepare quality output five to seven days a week in radio, TV 
and the Internet in the plan submitted by the Board of Governors. As a 
result, the essential reason for the existence of these services--to 
serve U.S. national interests--will be compromised as well as 
destroying the credibility that VOA has built up over many decades in 
the affected countries. Radio, via the uniqueness of VOA, still remains 
the medium by which the American people can convey their ideals, 
values, policies and information to people in other lands in the most 
and direct and economical way possible.
    To quote John Chancellor, VOA's director from 1965-67: ``There is 
something magic about these studios, something that leads one to a 
deeper understanding of the basic significance of the Voice of America. 
Every day, almost every hour, from the second floor at 330 Independence 
Avenue, SW, there exists a link to someone in another country. The 
broadcasters at the Voice understand this magic link, because the 
reality they perceive is the reality of the listener. They realize the 
basic fact which makes the VOA important: that the studios in 
Washington are really foreign posts. They understand that micro seconds 
after they speak, what they say is communicated to people in bedrooms, 
living rooms, tents, cars, caravans, as they enter the world of the 
listener. The official corridors of Washington fade, and the 
broadcasters are with the listeners. It is essential that this 
connection be understood, for without this knowledge, no understanding 
is possible of what I unashamedly call the magic of the Voice.''
    The SaveVOA Committee does not view VOA as just another media 
outlet but as the voice of the American people, telling America's story 
to the world with the purpose of keeping American influence intact in 
the target areas. VOA tells America's story as no other radio can or 
will. We believe the Board's decision to curtail VOA broadcasts to 
countries where these broadcasts remain vital and transforming our 
Agency's mission will erode America's stature in the target areas.
    Here, we argue for a substantive presence for VOA broadcasts in 
specific countries, something as yet undefined by the IBB Board of 
Governors. We believe that the Board, before eliminating VOA broadcasts 
should attempt to define the concept of what a substantive presence for 
U.S. international broadcasts in each individual country should be. 
Above all, new forms of communication such as TV and the Internet 
should be utilized to supplement rather than supplant the radio which 
remains the most cost-effective and dependable means for reaching 
people in the target area.
    In its testimony, the Board said that it ``reduced broadcasting to 
areas where we were a mainstay during the Cold War but are newly 
democratic and will reallocate resources to other areas of the world 
that still repressed or struggling to establish democracy.'' All the 
information at our disposal points to the fact that Poland, the Czech 
Republic, Hungary and the Baltic republics, after years of Soviet 
domination remain fragile democracies struggling with the transition to 
democratic reforms and a market economy, the establishment of a free 
press, and the eradication of anti-Semitic and anti-foreign 
philosophies. Above all, the sabre-rattling from Russia and the 
uncertainties about the policies of the new Russian government demand a 
substantive informational presence for Voice of America broadcasts at 
this critical time.
    In addition, the Board mentioned that the affected services are 
being cut because of the fact that they are new NATO members. Here 
there is an obvious discrepancy as Greece and Turkey have been NATO 
members for a number of years. However, the Board believes and we 
concur that it is important to continue to broadcast to Greece and 
Turkey notwithstanding the fact that they are members of NATO.
    At the April 26th hearing, the representatives of the IBB Board of 
Governors testified that Congress ``mandated that the Board review, 
evaluate and determine, at least annually . . . the addition or 
deletion of language services.'' Since the Board insists that it is not 
eliminating the affected language services, we question why this 
wording was used to justify its decision to cut the broadcasts. Or, as 
we fear, the drastic reduction of the services is already seen as a 
prelude to their actual deletion.
    Unfortunately, it appears that the Board's decision to cut the 
broadcasting frequencies to the affected countries means that VOA 
radio, for all practical purposes, will cease to exist.

                         SURROGATE BROADCASTING

    At the hearing, Senator Feingold asked why the Board elected to cut 
VOA programming and not RFE/RL's. This is a question that the SaveVOA 
Committee asks as well.
    Section 308 9g (4) of P.L. 103-236 states that ``duplication of 
language services and technical operations between RFE/RL and the IBB 
be reduced to the extent appropriate as determined by the Board.'' 
Section 1328 of the Foreign Affairs Reform and Restructuring Act asks 
the Board to make an assessment of the extent to which USG funding may 
be appropriate in the year 2000 and subsequent years for surrogate 
broadcasting, including an analysis of the environment for independent 
media, the extent of government control of the media, the ability of 
independent journalists and news organizations to operate and other 
indications of whether the people of such countries enjoy freedom of 
expression.
    It is a fact that there is duplication of language services and 
overlap of RFE/RL and VOA programming which the Broadcast Consolidation 
Act was supposed to correct. For example, RFE Estonian continues to 
operate and compete with VOA Estonian disregarding the fact that the 
opening up of the media in that country has largely diminished the need 
for RFE's surrogate programming. Overlap is also evident in Armenian 
and Georgian programming where RL has three times more broadcast time 
than VOA even though research shows that VOA broadcasts with less air 
time remain competitive. If the media climate has changed in Russia, 
the former republics, and Eastern Europe which the Board cites as a 
reason for cutting VOA, it stands to reason that the Board would begin 
to review the necessity for surrogate programming to other countries, 
as mandated by the Congress. In this respect, we would like to point 
out that in 1994, the Board cut the VOA Bulgarian broadcasts which far 
outranked RFE Bulgarian in popularity at that time. For this reason, it 
is difficult to understand what criteria the Board uses in evaluating 
the language services.
    In determining the need for surrogate programming, it is difficult 
to imagine that the Board would put Estonia, Latvia, and Lithuania in 
the same category as Iraq or Iran as far as the need for surrogate 
broadcasts is concerned.

                        LISTENERSHIP PERCENTAGES

    In its report, the Board quoted the drop in the percentage of 
listeners as a reason for cutting VOA broadcasts. The utilization of 
listener percentages in determining whether or not VOA programs will 
maintain a viable presence in a particular country is questionable 
since it seems as if all decisions on VOA broadcasting will now depend 
on commercial, mass audience figures. As we know, the audience for VOA 
broadcasts fluctuates depending on world events. During times of 
crisis, the audience is higher, at other times, it drops. If indeed VOA 
should have a substantive presence in other countries of the world in 
times of peace as well as conflict, as we contend, then cuts based 
solely on audience figures are not justified.
    Regarding percentages, the SaveVOA Committee points out that 
National Public Radio which is subsidized by the U.S. Congress through 
the Corporation for Public Broadcasting registers from 0.5% to a 3 
percent share of the listening audience. However, that low percentage 
of listenership does not affect the funding it receives nor is it used 
to justify cuts in the programming. The SaveVOA Committee believes that 
the critical mission of VOA of explaining U.S. policy to the world is 
even more deserving of congressional financial support as an arm of 
U.S. public diplomacy.
    If a drop in listenership was indeed a consideration, we find it 
curious that the Board would permit Radio Liberty Russian to broadcast 
24 hours daily especially in view of the fact that RL Russian has 
dropped from a high of 21% of the listening audience to 0.8%. Indeed, 
the question arises about the need for surrogate broadcasts especially 
around the clock to Russia in view of the opening up of its domestic 
media.
    These obvious inconsistencies in the Board's testimony are 
troubling. The SaveVOA Committee hopes that Senator Feingold will 
continue to pursue the question of the need for surrogate radio in 
Eastern Europe and the former Soviet Union in view of the changes in 
the media environment in those countries, as the Senator expressed at 
the hearing.
    In this regard, we question why the Board plans to establish, as it 
testified, a robust advertising and marketing program in Russia and the 
Ukraine to support RFE/RL broadcast services if the need for surrogate 
programming there is diminishing and if the programs have ceased to 
attract listeners. In addition, we ask why a similar advertising and 
marketing program was not done for VOA services in Eastern Europe if 
the marketing program endeavors to increase listenership figures.
    As an alternative to the costly advertising and marketing campaign 
contemplated by the Board, it may be more cost-effective to connect 
with the listeners by revitalizing the VOA Audience Mail section. In 
contrast to BBC which at one time employed over 30 mail assistants, VOA 
traditionally employed less than five staff people plus contractors to 
answer the volume of mail it receives. In order to strengthen contacts 
with the listeners, it might also be advantageous for VOA to 
reestablish its worldwide listeners' clubs, which played a vital role 
in the VOA's popularity in Bangladesh and Nigeria, expanding the club 
movement to other countries as well.

                           VOA-TV EXPERIMENT

    At the hearing, Board members testified that a TV operation in 
vernacular languages could fill an important niche in many media 
markets. Although that may be true, to our knowledge there has not been 
any global demand for a VOA-TV product nor has the Congress shown any 
inclination to adequately fund such an endeavor.
    Board member Mr. Kaufman testified that an outside consultant had 
trained over 100 IBB employees in video journalistic techniques. This 
outside contractor who was hired under a sole-source contract received 
over $3 million dollars which roughly translated means that training 
each employee in video journalism cost the U.S. taxpayer over $30,000 
per student for a three-week training course. We have no idea how many 
of the people who were trained under this pilot project actually 
emerged as qualified video journalists.
    The point is that the evidence shows that in 1998, the Board 
decided to go into TV and evidently began the process of abandoning 
radio. We do not know if this decision was made at the direction and 
with the consent of the Congress. In this respect, we trust that in 
funding the TV pilot project that the Agency met reprogramming 
notification requirements for the reallocation of funds.
    Since the Board talks about more ``bang for the buck,'' it might 
have been more cost-effective to utilize the talents of the employees 
we already have in WorldNet in training employees for TV rather than in 
incurring the considerable costs of an outside consultant in preparing 
TV feature material that might or might not ever be used.
    The Board testified that it has not forsaken direct radio 
broadcasts via shortwave and medium-wave. We hope that this is true as 
simultaneous broadcasting on shortwave together with placement on 
affiliate stations should be a priority. For example, shortwave 
broadcasts to Poland reach not only listeners in the country but also 
are heard in surrounding areas which have a Polish population. The same 
is true for VOA Hungarian broadcasts. Before shortwave broadcasts were 
cancelled, Hungarian broadcasts were heard in Vojvodina and Romania 
which have a substantial Hungarian population. Unfortunately, with the 
Board's decision to cut the shortwave broadcasting to the target areas, 
the opportunity to reach these listeners has been lost.

Programming

    The SaveVOA Committee urges the Congress to assure the Agency's 
compliance with Section 2420 of the 1998 Foreign Affairs Reform and 
Restructuring Act which calls for a daily program on U.S. states. This 
type of programming which is an ideal vehicle for the Voice of America 
to pursue, could very well stimulate the increase in listenership which 
the Board endeavors to do as well as advance U.S. trade and tourism.

                             OVERHEAD COSTS

    Since the International Broadcasting Consolidation Act of 1994 
which was supposed to streamline international broadcasting operations, 
the managerial, administrative and Office of Personnel structures of 
our Agency have continued to stifle the organization by adding layer 
upon layer of wasteful bureaucracy. A plethora of needless non-
broadcasting adjuncts and positions such as Chiefs of Staff, Special 
Advisors, Executive Assistants, budget analysts, strategic planners, 
have sapped the vital funds necessary for a more efficient operation of 
our Agency. If the Board is striving to prioritize expenditures and 
provide focus to our international broadcasting efforts, we believe it 
is essential to review the bureaucratic overhead strangling our Agency 
before attempting to effect cost savings by RIF'ing the lifeblood of 
our organization--the broadcasters.

                               CONCLUSION

    The SaveVOA Committee thanks the members of the Subcommittee on 
International Operations of the Senate Foreign Relations Committee for 
the opportunity to submit remarks on International Broadcasting 
Priorities.

                                   - 

</pre></body></html>
